<html>
<title> - EXAMINATION OF FIREFIGHTING POLICY WITH U.S. FOREST SERVICE AND U.S. DEPARTMENT OF THE INTERIOR</title>
<body><pre>[Senate Hearing 111-777]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-777
 
 EXAMINATION OF FIREFIGHTING POLICY WITH U.S. FOREST SERVICE AND U.S. 
                       DEPARTMENT OF THE INTERIOR 

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            		COMMITTEE ON APPROPRIATIONS 

			    UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                      MAY 26, 2010--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

56-720 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 















                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

 Subcommittee on Department of the Interior, Environment, and Related 
                                Agencies

                 DIANNE FEINSTEIN, California, Chairman
ROBERT C. BYRD, West Virginia        LAMAR ALEXANDER, Tennessee
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
BYRON L. DORGAN, North Dakota        ROBERT F. BENNETT, Utah
BARBARA A. MIKULSKI, Maryland        JUDD GREGG, New Hampshire
HERB KOHL, Wisconsin                 LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
JACK REED, Rhode Island
BEN NELSON, Nebraska
JON TESTER, Montana
DANIEL K. INOUYE, Hawaii (ex 
    officio)
                           Professional Staff

                            Peter Kiefhaber
                              Ginny James
                             Rachel Taylor
                             Scott Dalzell
                             Chris Watkins
                       Leif Fonnesbeck (Minority)
                        Rebecca Benn (Minority)
                         Brent Wiles (Minority)

                         Administrative Support

                              Teri Curtin
                         Katie Batte (Minority)













                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Dianne Feinstein....................     1
Statement of Hon. Adam Schiff, U.S. Representative From 
  California.....................................................     2
    Prepared Statement of........................................     5
Statement of Tom Tidwell, Chief, United States Forest Service, 
  Department of Agriculture......................................     7
Prepared Statement of Tom Tidwell and Mike Pool..................     9
Statement of Mike Pool, Deputy Director, Bureau of Land 
  Management, Department of the Interior.........................    13
Station Fire Review..............................................    14
Station Fire Aircraft Response...................................    15
Cooperative Firefighting Agreements..............................    16
Brush Clearance Requirements.....................................    16
Hazardous Fuels Treatments...................................... 18, 19
Cohesive Wildlife Management Strategy............................    19
2010 Fire Season.................................................    20
Station Fire And Night Flying....................................    21
Station Fire Review..............................................    22
Night Flying Wildland Fire Operations............................    23
Airtanker Assets.................................................    24
Airtanker Funding................................................    25
2010 Airtanker Assets............................................    26
Questions Submitted to Tom Tidwell...............................    27
Questions Submitted by Senator Dianne Feinstein..................    27
Questions Submitted by Senator Robert C. Byrd....................    34
Question Submitted to Mr. Mike Pool..............................    36
Question Submitted by Senator Dianne Feinstein...................    36



















 EXAMINATION OF FIREFIGHTING POLICY WITH U.S. FOREST SERVICE AND U.S. 
                       DEPARTMENT OF THE INTERIOR

                              ----------                              


                        WEDNESDAY, MAY 26, 2010

                           U.S. Senate,    
      Subcommittee on the Department of the
       Interior, Environment, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein and Tester.
    Also present: Representative Adam Schiff.


             opening statement of senator dianne feinstein


    Senator Feinstein. Good morning, ladies and gentlemen. I'd 
like to welcome you to the Interior, Environment, and Related 
Agencies Subcommittee on--well, Interior Subcommittee of 
Appropriations. This will be a hearing on Federal wildland fire 
policy.
    I think everybody knows that there are few issues that are 
as critical to public safety and environmental protection in my 
State, California, as wildland fire policy. Policy and 
appropriations are very much intertwined. And over the past 5 
years, the Federal Government has spent $3.1 billion to treat 
hazardous fuels and we're likely to spend more.
    And California is a very fire-prone State. It is hot. It is 
dry. The winds blow. I never thought I would see a time when 
you had 1,000 lightning strikes at one time in Northern 
California that started all kinds of terrible, catastrophic 
fires.
    I happened to fly out with President Bush to take a look 
and we flew over Shasta Dam and it looked like a moonscape. 
Everything was burned around it. The silt in the water. It's a 
beautiful area.
    And the point is that the fire can start instantly and you 
can't just let it burn. You've got to put it out, because it's 
catastrophic if it continues on. We have so much fuel load in 
the State.
    So our forests are tender dry. We're facing risk from 
extended draught, insect and disease infestation, and global 
warming. That translates into more wildfires, hotter, greater 
intensity.
    The Station Fire is only one example of how devastating 
these fires can be. In this case, 160,000 acres burned, two 
firefighters were killed, and nearly 100 homes were destroyed.
    So I know that Representative Schiff, who I know well, who 
cares about his district, has been very concerned.
    And I was very happy to hold this hearing to give an 
opportunity for an airing of what I think is a very 
consequential issue: In this new day and age, what, in fact, 
should wildland forestry firefighting be in areas that are huge 
and where the wildland urban interface (WUI)--in other words 
homes--have come so close to wildland that when you have one of 
these fires it's amazing what it can do.
    I went to another fire--I think it was San Bernardo--Rancho 
Bernardo where there were new homes in San Diego County, but 
the embers of the fire were so big and they caught under the 
roofs, and so you'd have this stucco and terracotta-tile 
subdivision and when it would hit a house, it would just burn 
the house to the ground. And they did not have adequate fire 
protection and so there was considerable devastation and loss 
of property.
    We will have two panels of witnesses this morning. Adam 
Schiff on the first panel. And he represents the 29th 
Congressional District, which includes several communities in 
the foothills of the San Gabriel Mountains in Los Angeles 
County. Again, his district was heavily impacted.
    The fire started in the Angeles National Forest on August 
26th of last year and burned for 7 weeks. It became the largest 
fire ever recorded in Los Angeles County. Representative 
Schiff, as I said, has raised a number of questions and 
concerns regarding this response.
    And, on the second panel, we'll hear testimony from United 
States Forest Service (USFS) Chief Tom Tidwell and Bureau of 
Land Management (BLM) Deputy Director Mike Pool.
    So without further ado, Representative Schiff, why don't I 
welcome you to the Senate side, and we'd be very happy to hear 
your testimony.
STATEMENT OF HON. ADAM SCHIFF, U.S. REPRESENTATIVE FROM 
            CALIFORNIA
    Mr. Schiff. Thank you, Madam Chair, for the opportunity to 
thank you for your leadership on these issues----
    Senator Feinstein. Can you punch the----
    Mr. Schiff. Yes, thank you. Thank you again, Madam Chair, 
for allowing me this opportunity to testify and for your 
leadership on these issues affecting our wildland firefighters.
    These brave men and women perform vital, difficult work for 
long hours in dangerous conditions. We depend on them to 
protect our families, our homes and our forests, and they 
dedicate their time, and sometimes their lives, to that 
calling.
    Many of our firefighters have served for decades developing 
the expertise needed to fight an unpredictable and resilient 
foe. And I honor their service, and I hope this hearing can 
help provide them with the resources and support they need to 
do their jobs in the safest and most effective way possible.
    As the Chairman pointed out, last summer the Station Fire 
ravaged the Angeles Forest, burning 160,000 acres over 50 days 
and threatening thousands of homes in my district and several 
adjacent districts.
    Almost all the fire was contained in the national forest, 
but, as usual, local, State, and Federal fire agencies across 
the region provided equipment and hundreds of firefighters to 
the effort.
    Two members of the LA County Fire Department, Captain Ted 
Hall and Firefighter Specialist Arnie Quinones, tragically lost 
their lives fighting that fire.
    In addition, the Station Fire effort cost almost $100 
million, a significant fraction of the USFS firefighting budget 
for the year. And because of its proximity to a major 
metropolitan area and its incredible expense, the fire 
illustrated many of the problems our firefighters face in the 
field and why wildland firefighting has become increasingly 
expensive.
    There were a couple of hundred fires in the Angeles Forest 
last year. Almost all of them were attacked and contained 
within 24 hours.
    Unfortunately, two fires escaped initial attack and spread 
across thousands of acres. Those two fires alone ate up much of 
the Angeles firefighting budget and caused almost all of the 
fire damage last year.
    Fire officials agree that the most important part of 
fighting fires is often the initial attack, which, if 
successful, keeps the fire smaller, cheaper and much safer for 
residents and firefighters.
    In this respect, fighting fires is like health care, where 
early detection and aggressive action can prevent the need for 
long, painful and expensive care later.
    The cost- and safety-conscious approach to fighting 
wildfire is to contain the fire early by making the initial 
attack as aggressively as possible, using as many firefighters 
and aircraft as possible, so that the hugely greater resources 
that are required to fight a massive fire are rarely needed.
    The Station Fire was attacked promptly and aggressively by 
USFS and LA County Fire Department firefighters on the 
afternoon of Wednesday, August 26, 2009. Hand crews, engines, 
and aircraft fought the fire until evening, when some resources 
were released.
    One night-flying helicopter owned by the LA County Fire 
Department was dispatched to the fire, but was quickly diverted 
to perform its other responsibility--medical evacuation.
    During the night, several hotspots developed in areas 
inaccessible to ground crews, due to steep terrain and thick 
vegetation. The incident commander ordered aircraft for the 
next morning, to arrive at 7 a.m.
    Unfortunately, possibly due to limited resources and safety 
requirements for rest hours, the air tankers did not arrive 
until around 9 a.m. In the early hours, right after sunrise, 
the inaccessible hotspots flared up and threatened the road 
that firefighters were using to reach the fire, forcing a 
retreat, and the failure of the initial attack.
    As a postreaction report from the LA County Fire Department 
stated: ``. . . [n]o one, no fire chief, no firefighter, 
resident, or reporter can provide definitive evidence that 
anything would have made a difference in the outcome. Still we 
must look hard at every action. We must question and we must 
make changes where we can.''
    One possible change is to equip the USFS with the 
capability to fly helicopters at night. There are night-flying 
helicopters in the Los Angeles area, but very few. And, in the 
case of the Station Fire, they were unavailable for at least 
some portion of the crucial first night. If the USFS had a 
dedicated night-flying capability, it would dramatically 
increase night-flying firefighting capacity in the region.
    Using night-vision goggles, the USFS operated night-flying 
firefighting helicopters on the Angeles Forest during the 
1970s. An accident in the late 1970s caused many to question 
whether the risks of night flights were worth the rewards, and 
by the early 1980s, the program had ended. USFS and its 
contractors no longer have the training or equipment to fly at 
night.
    However, the technology to enable night flying has 
developed dramatically in the three decades since. The LA 
County and LA City Fire Departments now fly helicopters at 
night using technology several generations better than that of 
the 1980s.
    Military contractors have built ultra-modern night-flying 
systems for use by our forces overseas, and many of those 
technologies are now being developed for civilian use.
    In addition, many have concluded that much of the risk 
could be removed by operational changes that minimize the 
possibility of collisions in the two areas of greatest traffic 
and greatest risk--over the fire and during landing and 
takeoff.
    In addition, a rapidly expanding urban-forest interface, 
modern, more effective firefighting techniques, and a better 
understanding of the importance of early attack all mean that 
the need for night flights has dramatically increased since the 
1970s.
    USFS must study this issue again, taking into account the 
increased need for aggressive firefighting techniques, as well 
as improved technology, which minimizes the risk to firefighter 
safety. I believe that if they do so, they will conclude that 
this is a capability they should once again acquire and deploy.
    Night-time flights are not a silver bullet, but they can 
significantly improve our ability to effectively fight fires 
near urban areas. And by helping reduce the number of 
catastrophic fires, they may save lives and also pay for 
themselves.
    The Angeles National Forest, like other forests across the 
country, has a rapidly growing urban area at its doorstep. 
Fires that start in the forest and burn through remote, 
inaccessible areas can now threaten tens of thousands of 
people.
    USFS employees and firefighters work hard to protect those 
people, but they are fighting an ever-more-difficult battle. We 
must be sure that we are providing them everything they need to 
fight fires in the safest, most cost-effective, and most 
efficient way possible.


                           prepared statement


    Chairman Feinstein, members of the subcommittee, I want to 
thank you again for the opportunity to testify. And, Madam 
Chair, I appreciate all the leadership you've brought to this 
issue for many years now.
    And I yield back the balance of my time.
    [The statement follows:]

 Prepared Statement of Adam Schiff, U.S. Representative From California

    Chairman Feinstein, members of the subcommittee, thank you 
for the opportunity to speak to you today about the challenges 
facing our wildland firefighters. These brave men and women 
perform vital, difficult work for long hours in dangerous 
conditions. We depend on them to protect our families, our 
homes and our forests, and they dedicate their time and 
sometimes their lives to that calling. Many of our firefighters 
have served for decades, developing the expertise needed to 
fight an unpredictable and resilient foe. I honor their 
service, and I hope that this hearing can help us provide them 
with the resources and support that they need to do their jobs 
in the safest and most effective way possible.
    As the chairman knows well, last summer the Station Fire 
ravaged the Angeles National Forest, burning 160,000 acres over 
50 days and threatening thousands of homes in my district and 
several adjacent districts. Almost all of the fire was 
contained to the National Forest, but, as usual, local, State, 
and Federal fire agencies across the region provided equipment 
and hundreds of firefighters to the effort. Two members of the 
LA County Fire Department, Captain Ted Hall and Firefighter 
Specialist Arnie Quinones, tragically lost their lives fighting 
the fire. In addition, the Station Fire effort cost almost $100 
million, a significant fraction of the Forest Service (USFS) 
firefighting budget for the year. And because of its proximity 
to a major metropolitan area and its incredible expense, the 
fire illustrated many of the problems our firefighters face in 
the field, and why wildland firefighting has become 
increasingly expensive.
    There were a couple of hundred fires in the Angeles Forest 
last year. Almost all of them were attacked and contained 
within 24 hours. Unfortunately, two fires escaped initial 
attack and spread across thousands of acres. Those two fires 
alone ate up much of the Angeles firefighting budget and caused 
almost all of the fire damage last year. Fire officials agree 
that the most important part of fighting fires is often the 
initial attack, which, if successful, keeps fires smaller, 
cheaper and much safer for residents and firefighters.
    In this respect, fighting fires is like healthcare, where 
early detection and aggressive action can prevent the need for 
long, painful, and expensive care later. The cost and safety-
conscious approach to fighting wildfire is to contain the fire 
early by making the initial attack as aggressively as possible, 
using as many firefighters and aircraft as possible, so that 
the hugely greater resources that are required to fight a 
massive fire are rarely needed.
    The Station Fire was attacked promptly and aggressively by 
the USFS and LA County Fire Department firefighters on the 
afternoon of Wednesday, August 26, 2009. Handcrews, engines, 
and aircraft fought the fire until evening, when some resources 
were released. One night-flying helicopter, owned by LA County 
Fire Department was dispatched to the fire but was quickly 
diverted to perform its other responsibility--medical 
evacuation.
    During the night, several hotspots developed in areas 
inaccessible to ground crews due to steep terrain and thick 
vegetation. The incident commander ordered aircraft for the 
next morning, to arrive at 7 a.m. Unfortunately, possibly due 
to limited resources and safety requirements for rest hours, 
the airtankers did not arrive until around 9 a.m. In the early 
hours, right after sunrise, the inaccessible hotspots flared up 
and threatened the road that firefighters were using to reach 
the fire, forcing a retreat, and the failure of the initial 
attack. As a postaction report from the LA County Fire 
Department stated: ``. . . [n]o one, no fire chief, no 
firefighter, resident or reporter can provide definitive 
evidence that anything would have made a difference in the 
outcome. Still we must look hard at every action. We must 
question and we must make changes where we can.''
    One possible change is to equip the USFS with the 
capability to fly helicopters at night. There are night-flying 
helicopters in the Los Angeles area, but very few, and in the 
case of the Station Fire, they were unavailable for at least 
some portion of the crucial first night. If the USFS had a 
dedicated night-flying capability, it would dramatically 
increase night-flying firefighting capacity in the region.
    Using night-vision goggles, the USFS operated night-flying 
firefighting helicopters on the Angeles National Forest during 
the 1970s. An accident in the late 1970s caused many to 
question whether the risks of night flights were worth the 
rewards, and by the early 80s, the program had ended. The USFS 
and its contractors no longer have the training or equipment to 
fly at night.
    However, the technology to enable night flying has 
developed dramatically in the three decades since. Military 
contractors have built modern night-flying systems for use by 
our forces overseas, and many of those technologies are now 
being developed for civilian use. In addition, many have 
concluded that much of the risk could be removed by operational 
changes that minimize the possibility of collisions in the two 
areas of greatest traffic and greatest risk--over the fire and 
during landing and take-off.
    In addition, a rapidly expanding urban-forest interface, 
modern, more-effective firefighting techniques, and a better 
understanding of the importance of early attack all mean that 
the need for night flights has dramatically increased since the 
1970s.
    The USFS must study this issue again, taking into account 
the increased need for aggressive firefighting techniques, as 
well as improved technology, which minimizes the risk to 
firefighter safety. I believe that if they do so, they will 
conclude that this is a capability they should once again 
acquire and deploy. Night-time flights are not a silver bullet, 
but they can significantly improve our ability to effectively 
fight fires near urban areas, and by helping reduce the number 
of catastrophic fires, they may save lives and pay for 
themselves.
    The Angeles National Forest, like other forests across the 
country, has a rapidly growing urban area on its doorstep. 
Fires that start in the Forest and burn through remote, 
inaccessible areas can now threaten tens of thousands of 
people. The USFS employees and firefighters work hard to 
protect those people, but they are fighting an ever-more-
difficult battle. We must be sure that we are providing them 
everything they need to fight fires in the safest, most cost-
effective and most efficient way possible.
    Chairman Feinstein, members of the subcommittee, thank you 
again for the opportunity to testify before the subcommittee.

    Senator Feinstein. Well, thank you very much, 
Representative Schiff, and I appreciate your concern about your 
constituents. And I think this is a very appropriate 
conversation to have now.
    My own thinking is that fires are not going to get better. 
They're going to get worse. Global warming will set in on our 
State. We already know the temperature is going up. We've had 4 
years of drought. This is the first year of any kind of relief, 
and the State, most of the time, is very dry. And I worry a lot 
about it.
    We have tried to put more money--as you know--and have put 
substantial new sums, and the Department of the Interior (DOI), 
which we'll go into a little later, is proposing, I think, 
three different funds here, and we want to talk a little bit 
about that as well.
    So I want you to feel welcome to remain here. If you'd like 
to come up and sit on the platform, we will temporarily allow 
you access to the Senate.
    Mr. Schiff. Thank you.
    Senator Feinstein. Push you out at the end, but feel 
welcome in the interim. And so why don't you come on up and sit 
here with us and let's move on to the second panel.
    And that would be Tom Tidwell, the Chief of the USFS, 
United States Department of Agriculture (USDA), and also Mike 
Pool, whom I've worked with for a long time and like very much, 
the Deputy Director of the BLM of the DOI.
    So, Mr. Tidwell, why don't I ask that you begin? You've 
heard Representative Schiff, and I think you've heard my 
comments. We've had a little bit of an opportunity to discuss 
this next budget coming up and the Federal Land Assistance, 
Management and Enhancement (FLAME) Act and the President's 
special fund or I guess it's your initiative.
    And we really need to see, I think--I'm a big one for 
initial attack. I happen to share that view with Representative 
Schiff. So, please, proceed.
STATEMENT OF TOM TIDWELL, CHIEF, UNITED STATES FOREST 
            SERVICE, DEPARTMENT OF AGRICULTURE
    Mr. Tidwell. Thank you, Madam Chairman, and also thank you, 
Congressman Schiff. I appreciate the opportunity to testify 
here today on the Federal fire policy. I also appreciate the 
opportunity to be here with Deputy Director Pool.
    Using a collaborative approach to our fire policy and our 
wildland fire response is an essential part of our success, and 
we have a long history of working together between the Federal 
agencies and with the State and local governments.
    We've started to work on our new cohesive wildfire-
management strategy, and this strategy will provide us an 
opportunity to have further engagement with the State, tribal 
and local governments, and even our non-Government partners to 
work cooperatively to address the Nation's wildfire issues.
    The approach on this strategy is going to be to use the 
best available science and focus on three key areas: taking a 
landscape-scale approach to restoration, developing fire-
adapted human communities, and, of course, our wildfire 
response. We'll use this strategy to develop a preferred 
approach that meets the needs of the national, regional, and 
local levels.
    Of course, a key part of this approach is to be able to 
continue and expand on our actions to restore these fire-
adapted ecosystems and reduce the hazardous fuels, especially 
into the WUI.
    As both of you have already mentioned, with the continued 
expansion of this WUI and the increase in the bark-beetle 
activity that we're seeing throughout the West--and, today, we 
have more than 17\1/2\ million acres of dead and dying trees--
it's just essential that we continue our focus on the highest-
priority areas.
    The Federal agencies are committed to working cooperatively 
and collaboratively with partners in our communities to restore 
the resiliency of our fire-adapted ecosystems, reducing the 
threats to communities and maintaining healthy watersheds.
    Madam Chairman, I want to thank you again, and members of 
this subcommittee, for the passage of the FLAME Act. Knowing 
that we go into this season knowing that we will not have to 
shut down other critical programs in the middle of summer to 
fund fire suppression, you will see an improvement----
    Senator Feinstein. Let me interrupt you just for a minute 
to say how big a change that is, and it's really quite 
wonderful, because all our staffs, I think, remember the years 
where you run out of money and you've got to take the money 
from somewhere else. And so, really, for--I think it's the 
first time now----
    Mr. Tidwell. It is.
    Senator Feinstein [continuing]. Where we've got an adequate 
budget, and I really want to keep it that way. So thank you for 
mentioning it.
    Mr. Tidwell. Well, thank you once again for your efforts on 
this, and it will make a difference in our overall performance. 
You'll see fewer impacts in our communities and fewer impacts 
on jobs that rely on being able to do this work in our critical 
programs throughout the summer.
    I also look forward to continuing our discussion on the 
2011 President's budget request when it comes to wildfire 
suppression funding.
    That budget request provides for full funding for wildland-
fire suppression. It includes a level of preparedness that will 
enable us to continue our success to suppress more than 98 
percent of our fires during the initial attack.
    It provides for the realignment of preparedness and 
suppression funds that more accurately displays the true costs 
of suppression, and, of course, it provides for the FLAME Fund 
to increase our accountability and transparency.
    It also provides for the contingency reserve fund that will 
significantly reduce the need for us to have to transfer funds 
from other critical programs, even in the biggest fire years 
that we may face.
    The other key point of our budget request is it increases 
the focus on doing hazardous fuel reduction work within the WUI 
where we can make a change with fire behavior and significantly 
reduce the threat to our homes and our communities.
    The outlook for this current fire season indicates that 
there is a potential for a very active fire season, especially 
depending how the weather develops through the rest of the 
season. I want to reassure you that we're ready, that we have 
the resources in place, we have the crews on and we're ready to 
deal with this coming fire season.
    I also want to thank Congressman Schiff for his recognition 
of the challenging job our firefighters face and the challenge 
that comes with those jobs.
    I also want to thank you for your interest and support in 
helping us make sure that we learn everything we can from the 
Station Fire, so that we can apply those lessons and we can do 
it in a way so that the next time we have a large fire we have 
a different set of outcomes.
    I want to tell you that I agree with your request for us to 
look at our policy when it comes to night flying, and we have 
already started to do that analysis with the expectation that 
we'll have that completed this fall on the use of rotary-wing. 
We're also going to be doing an analysis on the use of fixed-
wing for night flying.
    So I appreciate your support on this and we're looking 
forward to having that analysis completed, and when we do, 
we'll present that to the subcommittee.
    Madam Chairman, as you've already mentioned, the fires that 
we're facing are becoming larger and more difficult to suppress 
and it's due to the changing climate, the hazardous fuels and 
also the magnitude and complexity of the WUI.

                           PREPARED STATEMENT

    We fully expect to continue our initial-attack success, but 
when we do have a fire that does escape initial attack, we will 
use the best experience, the best science, and the best fire-
suppression assets to manage those fires, ensuring firefighter 
and public safety while protecting our communities and 
effectively using our fire-suppression assets.
    This concludes my opening remarks, and I look forward to 
your questions. Thank you.
    [The statement follows:]
            Prepared Statement of Tom Tidwell and Mike Pool
                              introduction
    Madam Chair, Mr. Alexander, and members of the subcommittee, thank 
you for the opportunity to testify today on Federal fire policy. Since 
the Department of the Interior (DOI) and the Department of Agriculture 
(USDA) work closely together in wildland fire management, the two 
Departments are providing a joint statement.
                      federal wildland fire policy
    DOI and USDA take seriously their responsibilities for the 
protection of people and property, and the Nation's valuable natural 
resources from unwanted wildfire. Our wildland fire management programs 
recognize fire as a critical natural process and the importance of 
integrating fire management consideration into land and resource 
management plans and activities. Federal managers and firefighters 
perform professionally under the most challenging of circumstances, 
managing wildfire across multiple landownership boundaries, and 
applying the best-available science.
    The Wildland Fire Leadership Council (WFLC) was established in 
April 2002 by the Secretaries to provide an intergovernmental committee 
to support the implementation and coordination of all aspects of 
Federal fire management policy. DOI and USDA, in collaboration with 
State, tribal and local partners, have been implementing guidance that 
increases wildland fire managers' flexibility in managing wildfire to 
achieve both protection and resource objectives. Our implementation 
guidance recognizes two kinds of wildland fire: planned ignitions 
(prescribed fire), and unplanned ignitions (wildfire), and allows fire 
managers to manage a fire for multiple objectives and increase 
managers' flexibility to respond to changing incident conditions and 
firefighting capability while strengthening strategic and tactical 
decision implementation supporting public safety and resource 
management objectives. Initial action on human-caused wildfire will 
continue to suppress the fire at the lowest cost with the fewest 
negative consequences with respect to firefighter and public safety.
    A new wildfire analysis and decision process, the Wildland Fire 
Decision Support System (WFDSS), is being developed to improve decision 
documentation, risk assessment/decision support, and operational 
implementation. This system will replace the Wildland Fire Situation 
Analysis, Wildland Fire Implementation Plan, Long-Term Implementation 
Plan, and Strategic Implementation Plan and enhance managers' ability 
to analyze fire conditions and develop risk informed strategies and 
tactics.
    The key principles we will be following this year include:
  --Safety always comes first in fire management.
    --No structure, or natural or cultural resource, is worth a human 
            life.
    --When firefighters plan a tactic, the first question is always, 
            ``Can we do this safely?'' If the answer is ``No,'' they 
            will take another direction.
  --Fire management decisions will be based on many factors.
    --Not all fires are managed the same way.
    --Responding to a fire may include using multiple strategies. The 
            response could range from monitoring a fire that is 
            beneficial to the landscape to aggressively putting out a 
            fire that threatens people or important natural or cultural 
            resources.
    --Decisions are based on safety for the public and firefighters, 
            what is threatened by the fire, forecasted weather, fire 
            behavior, and what the fire and land-use plans or 
            objectives are for the area.
  --In fire, we all work together.
    --Local, State, tribal, and Federal firefighters all work together 
            to keep the public safe and natural resources protected. 
            Pooling our strengths, resources, and experience improves 
            our effectiveness and increases efficiencies.
  --Firefighters count on private landowners to take personal 
        responsibility for their homes.
    --Homeowners in a fire-prone area should take a few simple steps to 
            make their property more defensible. It will increase 
            homeowner safety and that of firefighters. It will also 
            increase the chance that a home will survive a fire.
    --Wildland firefighters are not responsible for making private 
            homes defensible. Private landowners are, and the 
            ``Firewise'' steps they take before the fire season begins 
            may be the most important difference in whether their home 
            survives or not.
Cohesive Wildfire Management Strategy (Cohesive Strategy)
    The WFLC is in the process of developing a Cohesive Strategy. The 
Federal Land Assistance, Management, and Enhancement (FLAME) Act of 
2009 (title v, section 503 of the Department of the Interior, 
Environment, and Related Agencies Appropriations Act, 2010) requires 
the Secretaries, acting jointly, to submit to Congress a report that 
contains a cohesive strategy consistent with the recommendations 
described in recent reports of the Government Accountability Office 
regarding management strategies by fall 2010. The Secretaries view this 
as an outstanding opportunity to engage our State, tribal, local 
governments, and non-Government partners as we work collaboratively to 
discuss the recommendations in the Quadrennial Fire Review and other 
reports, and consider the development of a national Cohesive Strategy.
    addressing wildland fire risk to communities and the environment
    Dangerous fire and fuels conditions exist in many areas in the 
United States, and the DOI and USDA are acting to reduce hazardous 
fuels on high-priority lands, focusing especially on the wildland-urban 
interface (WUI). While increasingly complex landscapes complicate our 
wildfire suppression task, the DOI and USDA can and are aggressively 
treating hazardous fuels to help reduce the risk of catastrophic fire, 
especially to our communities. The DOI and USDA are continuing to 
refine their Hazardous Fuels Prioritization and Assessment Systems to 
ensure funds are directed to highest-priority projects in the highest-
priority areas, and complement the activities of neighboring States, 
tribes, and local partners.
Fiscal Year 2011 Budget
    The President's fiscal year 2011 budget, which proposes 
approximately $2.6 billion for the Forest Service (USFS) and $934 
million for the DOI for wildland fire management, represents an 
important development in the management and oversight of wildland fire 
management programs.
    The 2011 budget proposes a new three-tier system of (1) a regular 
suppression account, (2) the FLAME Wildfire Suppression Reserve Fund 
account, and (3) a Presidential Wildfire Contingency Reserve account. 
The rolling 10-year average is fully funded, with funding split between 
the regular suppression account and the FLAME Fund. Each account 
requires a different level of responsibility for authorizing the 
expenditure of funds and includes the Secretaries and the President in 
the chain of command for wildfire suppression. For example, regular 
suppression funds would support initial attack and predictable 
firefighting costs, while FLAME funds would be used for the most 
severe, complex and threatening fires, and serve as a contingency 
reserve if the agencies exhaust their regular suppression resources due 
to an active fire season. The Presidential Wildfire Contingency Reserve 
account provides for responsible budgeting for wildfires in cases when 
funding requirements exceed projections and would be available to the 
respective Secretary subject to the issuance of a Presidential finding 
when the suppression appropriation, fully funded at the 10-year 
average, is exhausted. The USDA USFS and the DOI are committed to 
restoring the resilience and diversity of fire-adapted ecosystems on 
the landscape, consistent with public safety needs. The agencies and 
bureaus will identify, establish, and maintain necessary governance and 
risk management protocols to reduce any unnecessary risks to 
firefighters and our citizens in the short-term and reduce the risks to 
fire-adapted ecosystems in the long-term.
    The fiscal year 2011 budget request promotes the use of hazardous 
fuels funding in a cost-effective manner in high-priority areas, 
focusing on the WUI. This focuses treatments to more effectively reduce 
the risk of wildlfire to communities.
    The fiscal year 2010 appropriation provides $546 million in funding 
for hazardous fuels reduction. The President requests $512 million in 
fiscal year 2011. In addition to improving treatments, we collaborate 
with our local, State, and tribal partners more than ever before.
    In 2011, a total of 2.3 million acres are planned, with the 
majority of treatments occurring in the WUI.
                       wildland fire preparedness
    The early outlook for the 2010 fire season indicates the following:
  --Drought conditions continue to persist over northeast California 
        and northwest Nevada, western Wyoming, western Montana, and 
        much of Idaho.
    Snowpack in the Southwest has been well above average, while in 
western Wyoming through the northern Rockies the snowpack has been well 
below average.
  --Abundant fine fuels across southern Arizona are expected to lead to 
        a 4-6 week active grassland fire season. Fine fuels are not 
        expected to be of concern in the Great Basin. There is an 
        increased large fire risk over the California desert areas in 
        June due to fine fuels decreasing to normal by July.
  --In areas with above average snowpack, fire season onset will be 
        delayed due to a later snowpack melt.
  --Early indications suggest monsoon onset will occur around the 
        typical start date or late with associated precipitation 
        amounts normal for the season.
    To prepare for conditions anticipated in the 2010 fire season, the 
USDA and DOI are continually working to improve the efficiency and 
effectiveness of our firefighting resources. Fire managers have 
assigned local, regional, and national firefighting personnel and 
equipment based on anticipated fire starts, actual fire occurrence, 
fire spread, and severity with the help of information from the 
National Interagency Fire Center Predictive Services group. We will 
continue to improve our communication, coordination, assessing and 
managing risk, and decisionmaking skills.
    The DOI and USDA will continue to deploy analytic support tools to 
improve fire incident and program decisionmaking, and agency 
accountability. A number of WFDSS (such as FSPro, which models fire 
behavior, and RAVAR, which models values at risk from fire) provide 
real-time support to fire managers implementing risk-informed 
management. These efforts are coupled with program reforms such as 
strategic and operational protocols, improved oversight, and use of a 
risk management framework that ensure fire management resources are 
appropriately focused. The USFS, in collaboration with the DOI, is 
updating the fire planning and budget analysis process through the fire 
program analysis system. In summary, the budget promotes safe, cost-
effective, and accountable outcomes from investments made in managing 
fire on landscapes.
Firefighting Forces/Retention
    For the 2010 fire season, we are securing firefighting forces--
firefighters, equipment, and aircraft--comparable to those available in 
2009. More than 18,000 firefighters will be available, including 
permanent and seasonal Federal and State employees, crews from tribal 
and local governments, contract crews, and emergency/temporary hires. 
This figure includes levels consistent with 2009 for highly trained 
firefighting crews, smokejumpers, Type 1 national interagency incident 
management teams (the most experienced and skilled teams) available for 
complex fires or incidents, and Type 2 incident management teams (which 
are available for geographical or national incidents). The USFS will 
have four National Incident Management Organizations comprised of 
professionals permanently assigned to teams available.
Aviation
    Aviation resources are one of a number of tools available to 
accomplish fire related land management objectives. We note that during 
any year, thousands of wildland fires are suppressed without the 
benefit of air support. Aviation resources are most useful for initial 
attack and in supporting management objectives on large-scale fire 
operations. A diverse fleet composed of a mix of types of aircraft with 
specific mission strengths provide a toolbox for fire managers to use 
with specific fire situations. The wildland firefighting agencies 
continue to employ a mix of fixed and rotor wing aircraft. Key 
components of USFS 2010 aviation assets include up to 19 civilian large 
air tankers on Federal contracts, along with up to 26 Type 1 heavy 
helicopters and 41 Type 2 medium helicopters on national exclusive-use 
contracts; 52 Type 3 helicopters on local or regional exclusive-use 
contracts, and 8 Modular Airborne Fire Fighting System units that will 
be available for deployment subject to available military aircraft. 
Additionally, there are nearly 300 call-when-needed Type 1, 2, and 3 
helicopters available for fire management support as conditions and 
activity dictate. Likewise, Interior will maintain a mix of aviation 
resources in 2010 similar to that used in 2009, relying on single 
engine air tankers and helicopters.
    Earlier this month, USFS submitted the Interagency Aviation 
Strategy to Congress as required by the Interior, Environment, and 
Related Agencies Fiscal Year 2010 Appropriations Act. The report was 
prepared by the National Interagency Aviation Council with input from 
representatives from various State and Federal agencies.
                   joint fire science program (jfsp)
    The JFSP Governing Board invests in science and science delivery 
projects from an interagency perspective, and believes great value is 
added to all participating agencies from this approach. The Program 
emphasizes science delivery, program evaluation, and long-term science, 
all in response to specific recommendations of its governing board, and 
is currently engaged in three lines of work:
    Software System Integration.--JFSP is funding development of an 
Interagency Fuels Treatment Decision Support System (IFT-DSS). This 
data and software integration framework is scheduled for completion and 
potential transition to an operational system in fiscal year 2012.
    Smoke and Emissions.--JFSP recently invested in smoke model 
validation work and science addressing regional haze and low-level 
smoke dispersion. Science planning is underway to identify investments 
needed to integrate results from this work into operational smoke 
management tools.
    Fuel Treatments.--JFSP has invested heavily in research evaluating 
fuel treatment effectiveness and effects, and is currently investing in 
fuel treatment guides for managers, lifecycle fuel treatment regimes, 
insect and wind effects on fuel profiles, and climate change effects on 
fuel treatment effectiveness.
                            fire suppression
    A variety of factors, stemming from climate change, persistent 
drought, and hazardous fuels conditions and the increased magnitude and 
complexity of the WUI affect wildfires.
    DOI and USDA are committed to carrying through with reforms to 
contain fire costs and improve management, while simultaneously 
maintaining firefighter and public safety. In particular, we recognize 
the financial impact of WUI suppression activities on costs and will 
continue to aggressively pursue cost-mitigation measures in addition to 
focusing the majority of hazardous fuels funding for treatments in the 
WUI including utilizing risk-informed performance based suppression 
strategies; clarifying roles and responsibilities in the WUI; utilizing 
appropriate cost-share agreements; and deploying decision support 
tools. The strategy of focusing on high-priority fuels within the WUI 
will help deter the risks to communities posed by wildfires. In 
addition, hazardous fuels treatments reduce safety risks to 
firefighters and can reduce wildfire suppression costs.
    In fiscal year 2010, the DOI and USDA are continuing to deploy 
analytic support tools to improve fire incident and program 
decisionmaking, and agency accountability.
    The 2010 Interior, Environment, and Related Agencies Appropriations 
bill established FLAME Wildfire Suppression Reserve Fund accounts in 
the DOI and USDA. These funds become available to the Secretary to be 
transferred into the regular suppression account when funds provided 
for wildfire suppression and Federal emergency response in the wildland 
fire management appropriation accounts are nearly exhausted, and/or 
when certain objective criteria are met. Funds may be transferred from 
the FLAME Wildfire Suppression Reserve Fund upon a declaration by the 
Secretary of the Interior or the Secretary of Agriculture. Declarations 
must be based on specific protocols and criteria. As fires escape 
initial response, and as Type 1 or Type 2 Incident Management teams are 
assigned to those escaped incidents, a risk assessment and a formal 
risk decision will be made, which will be part of the declaration for a 
request to the Secretary to move funds from the FLAME Act account into 
the suppression account.
    A number of analytical tools (WFDSS, FSPro, which models fire 
behavior, and RAVAR, which models values at risk from fire) will be 
used to provide real-time support to fire managers implementing risk-
informed management. The Secretary may make a declaration in the event 
the suppression account is nearly exhausted.
                     firefighter and public safety
    We would like to emphasize that a core goal underlying our 
activities remains providing for firefighter and public safety. For 
example, on the first night on the Station Fire, engine crews spotted a 
spot fire below the Angeles Crest Highway and debated different 
possibilities of dealing with the spot fire. It was very dark, limiting 
sight. The canyon slope was steep and the terrain was unfamiliar. At 
the time, there was no direct immediate threat to public safety. The 
crew assessed the situation and determined that they could not safely 
go down that slope and suppress the spot fire. The risk to the crew, 
given the circumstances, was too high.
                               conclusion
    This concludes our statement, we would be happy to answer any 
questions that you may have.

    Senator Feinstein. Thank you very much, Chief. Appreciate 
it very much, and appreciate your willingness to look at night-
time firefighting, because I--I mean, what do you do?
    For me, the lightning strikes that summer--I guess a year 
ago--I've never seen anything like it in Northern California, 
1,000 fires started from lightning strikes at one time, one 
day. So it's a big problem.
    Mike Pool, is there anything you'd like to say?
STATEMENT OF MIKE POOL, DEPUTY DIRECTOR, BUREAU OF LAND 
            MANAGEMENT, DEPARTMENT OF THE INTERIOR
    Mr. Pool. Yes, Madam Chairman, I do have an opening 
statement. Good morning, first of all.
    Senator Feinstein. Good morning.
    Mr. Pool. Thank you for the opportunity to testify today on 
the Federal fire policy.
    I'm glad to be here representing the DOI. Interior works 
closely with USDA in the development and coordination of all 
aspects of the Federal fire-management policy. We welcome the 
opportunity to discuss these policies with you today.
    As always, our highest priority is safety. Federal fire 
managers are given the flexibility to respond instantly to 
changing conditions for two kinds of wildfire: Planned 
ignitions associated with prescribed fire and unplanned 
ignitions that result in wildfire. Firefighter safety is the 
first element in the fire-management decisions.
    In a key shift in the 2011 request, we are directing more 
of our resources to reducing the risk of catastrophic wildfires 
to communities. We propose to increase the use of hazardous-
fuel reduction in the WUI areas.
    The fiscal year 2010 appropriation for both the USFS and 
DOI provides $546 million in funding for hazardous-fuels 
reduction, and the fiscal year 2011 request is $512 million. 
Just to quickly explain that difference, the Interior--our 
appropriation resulted in that $44 million reduction in the 
non-WUI areas, but we also----
    Senator Feinstein. In the non-what areas?
    Mr. Pool. Non-WUI. You have WUI areas in close proximity to 
communities. We also have what we call non-WUI areas and more 
remote areas associated with actions to improve forest health. 
So our commitment in 2011 is mainly dedicated to the fuel 
reductions associated with communities at risk.
    By emphasizing fuels reductions in the WUI, our resources 
will be used most effectively to protect people living in these 
areas.
    Also, attention to the WUI enables us to work cooperatively 
and efficiently with local, State, tribal and Federal 
firefighters, because pooling our resources improves fire-
management effectiveness and helps to keep our costs down.
    The President's 2011 wildland fire management budget 
proposes approximately $2.6 billion for USFS and $934 million 
for the DOI. It sets out a new three-tier funding system: 
Number one, the use of our regular suppression account. Two, 
the FLAME wildland-suppression reserve fund account, and, 
three, a Presidential wildfire contingency reserve account.
    The rolling 10-year average is fully funded with funding 
split between the regular suppression account and the FLAME 
fund. The funds requested in the Presidential wildland fire 
contingency reserve account will assure that sufficient funds 
are available to fight fires without diverting funds from other 
nonfire programs and activities.
    In addition, the American Recovery Reinvestment Act made 
$15 million available to the DOI Wildland Fire Management 
Program. We're using these funds for 55 high-priority 
hazardous-fuel reduction projects on Federal lands. More than 
15,000 acres have been treated thus far, producing almost 
70,000 tons of biomass that have been conveyed to users for 
biomass energy or for special wood-product manufacturing.
    For the longer term, the Wildland Fire Leadership Council 
is developing a cohesive wildfire-management strategy as 
required by the FLAME Act. This is an outstanding opportunity 
to engage our partners and work collaboratively to consider 
development of a national strategy.
    We are now holding listening sessions in many areas of the 
country. For example, we are conducting a listening session in 
Sacramento the later part of this week.
    Thank you for the opportunity to testify. I would be happy 
to answer any questions.
    Senator Feinstein. Thank you very much, Mike.
    Chief Tidwell and Mr. Pool are accompanied by Tom Harbour, 
the Director of Fire and Aviation Management for USFS, and also 
Kirk Rowdabaugh, the Director of the Office of Wildland Fire 
Coordination at the DOI.
    And so, Mr. Tidwell, we'll ask some questions, and, Chief, 
you handle who you want to answer it, if that's okay. Perhaps 
we should go right to questions.

                          STATION FIRE REVIEW

    I'd like to go to Representative Schiff's testimony about 
the Station Fire, and let me begin by asking do you believe, 
Chief, that USFS's response to this fire in the first 24 hours 
was adequate and appropriate in terms of firefighters on the 
ground, planes, and helicopters in the sky and overall 
aggressiveness, given the explosive fire potential in the area?
    Mr. Tidwell. Madam Chairman, I do believe that our folks 
took the appropriate response to that fire, and I believe it 
was a very aggressive response to the fire.
    As you know, I did call for a review, an interagency 
review, of the initial attack on that fire, due to the tragedy 
that occurred and also just the overall expanse of the fire, 
and there were some questions that were raised.
    So, we had an interagency review take a look at if our 
folks out there on the ground, the ones that are out there at 
night that have to make the tough decisions about how to deal 
with these fires, did they follow our protocols, did they 
follow our procedures, did they make use of the available 
resources? And the conclusion of that review is yes, they did.
    Since then, we have continued to look at the Station Fire, 
just like we do all fires, to determine what we can learn from 
it. We've also looked at the recommendations from LA County, 
because they, too, did a review and came up with a list of 
recommendations about how we can improve our response in the 
future.
    One of those was the question on our policy about night-
time flying with helicopters, and that's one of the things that 
we are going to move forward and do analysis on it. The other 
thing that we found is that we need to clarify our current 
policy of using our cooperators' capacity to fly at night. And 
so both the Angeles----
    Senator Feinstein. Cooperators being----
    Mr. Tidwell [continuing]. LA County, LA City, San Diego 
City, Santa Barbara, and I also think Kern County has the 
capability, too.
    So in southern California, our cooperators do have this 
capability, but we felt that we needed to clarify that they can 
use this capability. So that's another one of the lessons that 
we've learned following this fire.

                     STATION FIRE AIRCRAFT RESPONSE

    Senator Feinstein. According to the documentation you 
provided my staff in preparation for this hearing, no aircraft 
actually flew over the fire on the night of August 26. Yet, the 
Station Fire review states that the county helicopters could 
have dropped water, as needed, throughout the night. That's LA 
County Fire Department.
    Why were there no aircraft flying over the fire on the 
night of August 26?
    Mr. Tidwell. On the evening of August 26, our incident 
commander did request a helicopter from LA County that has the 
capability to fly at night. LA County provided that ship, 
Helicopter 14. It did work on the fire for a short period of 
time. I think it made three drops, three water drops, and then 
it had to be diverted to its primary mission, which is 
emergency medical assistance.
    There weren't any more helicopters that were used that 
night. There was ongoing discussion between our fire personnel 
and LA County personnel about availability of other ships, but 
there were no other ships that were used that night.
    Senator Feinstein. Okay. According to the documentation, 
again provided to the subcommittee, personnel at the fire 
requested three air tankers and a helicopter to be flying over 
the fire by 7 in the morning of August 27.
    According to the records, the first of those planes wasn't 
ready to take off from its tanker base until 8:40 a.m., which 
meant the aircraft arrived at the fire at least two hours later 
than requested, and the helicopter didn't take off for the fire 
until 7:35 a.m.
    Now, here's the question: Why did it take so long for 
aircraft to arrive at the fire the next day? And what specific 
steps is USFS taking to avoid delays like this in the future?
    Mr. Tidwell. Well, Madam Chairman, thank you for the 
question. The incident commander requested those air tankers 
at--I think it was 12:50 in the morning of August 27th and 
submitted that request to our dispatch center. Our dispatch 
center then goes out to find the nearest available resources to 
be able to fill that order.
    The nearest available air tankers, at that time, were their 
tankers that were used on the Morris Fire the previous day, and 
they were not available due to required pilot shifts. They were 
not available to come on shift until 7 o'clock in the morning.
    It takes a certain amount of time for those pilots to be 
briefed. They had a new mission to fly the Station Fire instead 
of the Morris Fire, and there's a required briefing they go 
through and also time needed to refuel those tankers, and so 
there is a certain amount of time that's necessary. So, that is 
why those planes were not available before they arrived on the 
Station Fire.
    We also did have a helitanker, our large helicopter, that 
was working that fire. I think it was over the fire around 7:45 
a.m. that morning and continued to make drops throughout the 
day.
    I would like to mention that on that second day of that 
fire, we dropped more than 400,000 gallons of water from the 
helicopters, in addition to the retardant drops of about 80,000 
gallons that were made throughout that day.
    I look at that level of response and that we were not able 
to successfully suppress that fire, it just gives you an 
indication of the fuel conditions that we face on these 
landscapes and the environmental conditions, the hot, dry 
weather that we had. You look at the amount of resources that 
were applied on that fire--and the fire was relatively small 
early in that day--and we still were not able to successfully 
suppress that fire.

                  COOPERATIVE FIREFIGHTING AGREEMENTS

    Senator Feinstein. The Los Angeles County Fire Department, 
in the review that you mentioned in your opening remarks, made 
other recommendations. I'd like to just get your response on a 
couple of them.
    One is to expand the operating agreements with State and 
local cooperators to allow better coordination and more 
aggressive use of aviation resources, including night flying. 
Has that been done?
    Mr. Tidwell. Well, those agreements are best worked out 
between our local line officers and our regional forester, and 
it's essential for us to have those agreements in place. I know 
that both the forest and the region are looking at those 
agreements to ensure that we're able to make use of all the 
resources that we need when we need those to suppress these 
fires.
    Senator Feinstein. So, Chief, is the answer yes or no?
    Mr. Tidwell. The answer is yes, that the forest supervisor 
and the region are looking at all of our cooperative agreements 
to see if there's any barriers in there that prevent us from 
being able to use the resources that we need to suppress these 
fires.
    Senator Feinstein. We'd appreciate it if you'd let the 
subcommittee know what the result of that is.
    Mr. Tidwell. Yes.

                      BRUSH CLEARANCE REQUIREMENTS

    Senator Feinstein. Thank you.
    Apparently, the other one is extending brush-clearance 
requirements for structures on the forest from 30 feet to 200 
feet. What is USFS's response to this recommendation?
    Mr. Tidwell. Our regional forester has sent out direction 
to all the forests in California to adopt the California State 
standard of a minimum of 100 feet of clearance, with an 
understanding that we need to look at the situation, and that 
there are some cases when we need to expand that level of 
clearing.
    We now will have alignment with the State standards, which 
I think will be a lot easier for the private landowners to 
understand what they need to do and not have two different 
standards.
    Senator Feinstein. I think that's excellent.
    Before I go into night flying, I'd like to welcome Senator 
Tester. He comes from a State that is also prone to fire, has 
been very interested. We've worked together in creating a 
situation where hazardous fuels can be removed. So, Senator, 
whatever you'd like to say or question.
    Senator Tester. Yes, well, first of all, thank you, 
Chairman Feinstein, for the kind words. I look forward to 
continuing that work as both of our States see a situation 
that--well, it needs to be fixed. And we look forward to 
working with USFS and the BLM in making sure that we're all 
heading in the right direction, pulling together on the same 
rope.
    And I appreciate the folks being here on the panel today, 
because we have some interesting conditions that are developing 
in Montana with the lack of snowpack. And, interesting enough, 
I don't know what's happened in the mountains right now, but 
we're getting a lot of rain, which is a good thing, as long as 
it keeps up.
    So, Chief Tidwell, I want to start with you. It's my 
understanding that USFS supports the procurement of new, large 
aircraft to improve firefighting capabilities. I understand 
that we can expect very soon they'll have a joint Department of 
Defense (DOD)-USFS report on placing these aircraft at the Air 
National Guards. However, I think that we have a private sector 
that can still play a critical role in aerial attack.
    Can you tell me a little bit about how you view the private 
sector's role in providing contract support to USFS, assuming 
that the Air National Guard should become the primary aerial 
firefighter or do you even see it that way?
    Mr. Tidwell. Well, Senator, thank you for the question.
    We have submitted our interagency review of our aviation 
strategy for firefighting. In addition, we are continuing to do 
ongoing studies to determine the capacity that we need in our 
large air tankers, along with the capacity in large helicopters 
and smaller air tankers.
    We have some options that we need to consider, looking at 
using military Air National Guard aircraft or continuing with 
our contractors.
    Our contractors have done a great job over the years to be 
able to maintain an aging fleet of planes to provide this 
capacity for large air tankers, and they've demonstrated that 
they have the ability to look at new technology and continue to 
explore different approaches. So, in my view, I think our 
private contractors definitely have a role in the future when 
it comes to large air tankers.
    I understand that even this coming year, two of our 
contractors are moving forward with development using a newer 
aircraft that's only about 25 to 30 years old. We're optimistic 
that we'll be able to have one or two of these planes available 
later this summer to be able to judge their effectiveness. 
Hopefully, this will be an opportunity for us to be able to 
move forward with a newer version of a plane than what we've 
been relying on with the current P-2 and P-3s.

                       HAZARDOUS FUELS TREATMENTS

    Senator Tester. Okay. Thank you. I could go into what 
percentages you anticipate being done privately and what being 
done by the--but we will wait until we get the report before we 
follow up on that line.
    Each year, fires get more expensive. They get harder to 
control, more dangerous to our communities and our citizenry. 
There's compounding factors in this--climate change, more 
people living in the WUI, high fuel loads.
    To address these factors, we need to take proactive steps. 
For example, I happen to have a bill you're familiar with--
Forest Jobs and Recreation Act--which directs USFS to 
mechanically treat 10,000 acres a year for a decade in the WUI 
as a priority in Montana, to protect our communities.
    In your testimony, you talk about beginning to prepare for 
the 2010 fire season--hiring 18,000 firefighters, purchasing 
supplies. I think those are critical steps for a season, once 
it starts.
    But what have you done to lessen the potential of property 
damage or likelihood of catastrophic wildfire before the first 
fire is spotted? And what more should we be doing? It kind of 
dovetails onto some of the questions that Chairman Feinstein 
talked about.
    Mr. Tidwell. Well, Senator, it goes back to one of my 
comments that I made in my opening remarks about the importance 
of us doing treatment on hazardous fuels and also restoring 
these ecosystems, especially these fire-adapted ecosystems.
    It's essential that we continue to do that work, so that we 
can reduce the threat to our communities and so that when we 
get a fire started in these areas, our fire-suppression actions 
will be much more effective.
    This year we are watching the weather very closely, and as 
things develop throughout this summer we'll be moving our 
resources around throughout the country, based on the severity 
of fire conditions, so that we will be prepared to respond when 
we get these fires.
    As you've indicated in your State, in Montana, based on our 
snowpack and the number of dead and dying trees there, we do 
expect to have a very active fire season, especially later in 
the summer.
    Senator Tester. Okay. Madam Chair, I've got a couple more 
questions. I can continue or we can come back, however you want 
to do it.
    Senator Feinstein. Why don't you ask your questions? I have 
a couple more questions on night flying, and then I want to go 
into the air tankers. So whatever you----
    Senator Tester. Okay. You bet. This is kind of a follow up 
on the previous question anyway, Tom, and that is can you tell 
me how many acres in the WUI been done so far to reduce fire-
prone communities' potential of fire?
    Mr. Tidwell. Senator, over the last 9 years we've treated 
more than 16 million acres in the WUI between DOI and USFS.
    This year, we'll probably treat about another 1.5 million 
acres in the WUI.
    Senator Tester. Can you give me an idea how much of that is 
in Montana?
    Mr. Tidwell. Senator, I'll have to get back to you on that 
specific number.
    [The information follows:]

    The Forest Service target for treatment of high priority hazardous 
fuels in the Wildland-Urban Interface (WUI) for fiscal year 2010 is 
1,470,000 acres. However, we do not allocate this target by Forest 
Service (FS) region nor by State. In fiscal year 2009, the FS 
accomplished approximately 40,000 acres of WUI hazardous fuels work on 
National Forests which have land in Montana.

                       HAZARDOUS FUELS TREATMENT

    Senator Feinstein. As long as it's not as much as in 
California.
    Senator Tester. Perfect. How about the sufficiency overall? 
Is there a level of adequacy that you're comfortable with or do 
you feel like you're ahead of the curve, behind the curve as 
far as treatment in the WUI?
    Mr. Tidwell. Senator, it's a job we have to continue to 
focus on, and that's why you'll see in our 2011 budget request 
that we're increasing the emphasis on the WUI. At least 75 
percent of our hazardous-fuel funding for 2011 will be spent to 
do work in the WUI.
    Senator Tester. Does BLM do any work in interface?
    Mr. Pool. Senator, we do. We've had a very active program 
for a number of years.
    More recently, I served as State director in California, 
and I think the effectiveness of that program was the formation 
of the California Fire Alliance. That is all the Federal, 
State, and county agencies contributing their resources, and 
also the establishment of fire safe councils throughout the 
State of California.
    We have hundreds of communities at risk in California, for 
example, with high fuel loads. And the beauty of some of these 
initiatives is that the community started stepping up. It was 
no longer just a Federal or a State action. The community saw 
the value of contributing their resources, with some limited 
grant funding, to develop community protection plans and carry 
out fire-education programs on the prevention side of things.
    So, as Madam Chairman knows, California has had its history 
of catastrophic fires. So people really stepped up in terms of 
leveraging resources----
    Senator Tester. Good.
    Mr. Pool [continuing]. And being very assertive with fuel 
reductions.
    Senator Tester. Well, I think that, as both of you know, an 
ounce of prevention is going to save us a lot of money--to 
change the quote a bit.

                 COHESIVE WILDLIFE MANAGEMENT STRATEGY

    Last question and it goes back to you, Tom. In September 
2009, the Government Accountability Office (GAO) reported that 
USFS and the DOI had taken important steps in wildland fire 
management, but still have a way to go. Their recommendation 
was for agencies to develop an overarching management strategy, 
specifically with a cohesive plan to lay out different 
approaches, their costs and their tradeoffs.
    Actually, it could go to both. What have your agencies done 
to respond to the GAO recommendation?
    Mr. Tidwell. Senator, we have started our development of 
this cohesive strategy. The first step that we have taken is to 
hold a series of forums around the country, so we can sit down 
with our cooperators and partners to listen to them as to what 
they see we need to have in this overall cohesive strategy.
    We believe that it needs to be focused on three key 
principles; taking a landscape-scale approach to restoration, 
developing fire-adapted human communities, and, of course, 
continuing our wildfire response.
    Mr. Pool. BLM is working closely with the USFS in the 
collaboration sessions and jointly working with them in the 
cohesive-management strategy.
    Senator Tester. Okay. Thank you.

                            2010 FIRE SEASON

    We may dodge a bullet this year in Montana, but we may not, 
too, and I think the chances of not dodging that bullet are 
greater than dodging it.
    Tom, do you have the folks lined up right now to address a 
potential fire season that could be very challenging?
    Mr. Tidwell. Senator, I believe we do. We have the same 
level of preparedness, the same level of assets that we had 
last year, and so I'm confident that we do have the assets and 
the crews available to deal with that.
    Senator Tester. Okay. And just to follow up on that, how 
quickly can those assets get to a fire in Montana? Are they 
out-of-State assets, in-State assets? Could you break it down 
for me a little bit?
    And could you break it down on how quickly they can get--
because I think that once this thing--once it gets going, just 
stand back and let it go, because you ain't going to be able to 
stop it. So the question is ``Do you have the assets that can 
get there quickly?''
    Mr. Tidwell. Yes, Senator, we have the assets in Montana 
for initial attack, and as a fire escapes initial attack, we 
quickly bring in additional resources. As I mentioned earlier, 
based on the fire condition and in anticipation of, say, a 
lightning storm, we'll actually move resources into the area 
ahead of time to be prepositioned to be able to deal with that. 
That includes not only the aircraft, but also additional crews.
    Senator Tester. I want to thank all of you for your 
service, appreciate it very, very much.
    Thank you, Madam Chair, for your flexibility.
    Senator Feinstein. Thank you very much, Senator Tester.
    Representative Schiff, do you have some questions you might 
like to ask?
    Mr. Schiff. Senator, thank you very much. Appreciate the 
opportunity.
    Senator Feinstein. It's the largesse of the Senate.
    Mr. Schiff. It is. It is, and I promise you I won't get too 
used to it while I'm sitting here.

                     STATION FIRE AND NIGHT FLYING

    Chief Tidwell, thank you for your testimony. I just wanted 
to follow up with a couple of questions.
    You mentioned earlier that there had been a request for an 
LA County Fire Department night-flying helicopter that had come 
early in the evening, but had then been diverted for medical 
evacuations.
    Can you tell us a little bit more? I think you referenced 
some additional conversations about whether there were other 
night-flying vehicles available. Can you tell us a little bit 
more about that?
    And then I'd also like to ask you--I understand you're 
relooking at the policy against having the capacity within USFS 
to do night-time flights. Had you had the capacity during those 
early hours of the Station Fire, had USFS had night-time-
capable helicopters, would you have utilized them?
    So if you could tell us both about the conversations that 
were had about additional resources that may or may not have 
been available, as well as if USFS possessed the capability, 
would they have utilized it?
    Mr. Tidwell. Well, Congressman, thank you for the question.
    Following the time when Helicopter 14 needed to return to 
the emergency medical mission, it was my understanding that 
there was dialogue between our incident commander and fire 
personnel there from LA County about the availability of other 
helicopters that have the night-flying capability.
    It wasn't documented. There weren't any additional orders. 
It's one of the things that, from my own personal experience, 
go on during fires when you're sitting there talking about the 
situation you have.
    One of the lessons that we learned, and one of the changes 
that our forest supervisor on the Angeles National Forest has 
made, is to ensure that we use clear text when we're making our 
orders, that we do not do any informal ordering, that we follow 
our formal process, and that when we need resources we order 
them through our dispatch center. This way, in the future, when 
these questions arise, there isn't any misunderstanding of what 
did or what did not occur, because we will have that record.
    It's one of the lessons that we learned, that we need to 
just do a better job to follow our processes and make sure all 
of our ordering is done through our formal process. This is and 
so that we have a track record there and that there's a 
response back if resources aren't available. The incident 
commander is told that from dispatch, instead of the informal 
discussions that occur on a fire.
    Mr. Schiff. Chief, if I could just interject, there's a 
perception--and I want to ask you about the informal 
discussions a little further--but there's a perception that LA 
County asked for the authorization to do night flights. USFS 
doesn't have the capacity. LA County had the capacity. LA City 
had the capacity.
    There's a perception that LA County asked for permission to 
do night flights and they were turned down by USFS. Is that an 
accurate perception or is that a misunderstanding of what took 
place?
    Mr. Tidwell. Well, Congressman, based on the fact on that 
our incident commander requested a helicopter from LA County to 
do night-flight operations, it's my understanding that if a 
helicopter was available we would have received it because we 
asked for it.
    If there were ships available, ships that had pilots that 
hadn't timed out and were available, we would have received 
them because we wanted to use helicopters that night on that 
fire, based on what our incident commander ordered.
    Mr. Schiff. So, to your knowledge, there was never a time 
where USFS, in effect, vetoed a request by the county to employ 
more night-time flying capability.
    Mr. Tidwell. Not to my knowledge or anything that I've 
heard, and I have had many hours of discussion with many of our 
fire personnel on this situation, so that we can make sure we 
learn as much as we possibly can and apply that learning. If 
that occurred, I'm not aware of it.
    Mr. Schiff. Now, I take it--from your comment, that you 
requested the night-time helicopter and it was diverted--that 
the answer to my second question--if you had the capacity 
yourself in USFS, would you have utilized it?--I assume the 
answer is yes.
    Mr. Tidwell. Yes. Based on our incident commander 
requesting that resource for night operations, if we would have 
had the capability on that night and we had a helicopter 
available that, yes, we would have been using it that evening.
    Mr. Schiff. Madam Chair, you've been very indulgent. Do you 
mind if I ask one last question?

                          STATION FIRE REVIEW

    Senator Feinstein. Go ahead.
    Mr. Schiff. The conclusion in the review that was 
undertaken, that essentially you can't conclude it would have 
made a difference if you had used night-time craft, is that at 
odds with the statement you've made that if you had the 
resources you would have used them? Can you explain a little 
bit of whether there's a contradiction there or whether you're 
saying had you had the resources you would have used them, but 
it's impossible to say what the ultimate impact would have 
been?
    Mr. Tidwell. If we would have had the helicopters available 
that night, we would have used helicopters to drop water on 
that evening.
    The conclusion of the review team, when they looked at the 
assets that were used during that fire and at the amount of 
fire that occurred below the road from the spotting, was that, 
without access by firefighters on the ground, the use of aerial 
resources alone would not have allowed us to prevent all the 
spotting that occurred.
    That was the conclusion of the review team when they looked 
at the amount of fire that occurred below that road and the 
amount of spotting that occurred. They came to the conclusion 
that the aircraft alone would not have been enough.
    For us to suppress fires, it's essential that we are able 
to have access with our ground firefighters in conjunction with 
our aerial resources. By working together, we can successfully 
suppress these fires.
    The problem with the Station Fire was because of this spot 
fire above the road they wanted to use the helicopter on. They 
had to make the difficult call that night that they could not 
safely put firefighters in the fire.
    They did try to do a burnout operation to see if they could 
get some fire started to create a larger safety area to be able 
to get in and work on that fire. They were unable to do that. 
That was the spot, then, that created the spot fires down below 
the road. That was what the review team concluded, based on the 
amount of fire that occurred below the road, based on what they 
know, what they could see, and the information they had 
available, that even with those resources we would not have 
been able to suppress that fire.
    It's not 100 percent. This business isn't 100 percent, and 
that's why we try to use all the resources that are available 
and that our folks, I think, do a tremendous job to do 
everything that they can to suppress these fires. That's why 
they wanted to use the helicopter that night, to continue to 
try to work on that fire.
    At that time of the evening, they anticipated some spot 
fires to occur, but as you look at the logs, it was right after 
midnight when the spotting started to occur, and that's when 
they put in the additional orders. The amount of spotting, I 
think, even exceeded what they had originally thought they'd be 
dealing with the evening before.
    Mr. Schiff. Chief, I know some of the retired USFS 
personnel have taken a different view of the subject. We'll 
have a chance to explore that further in Los Angeles in the 
near future.
    But, Madam Chair, I want to thank you for the opportunity. 
I know it's a rare opportunity to ask questions here.

                 NIGHT FLYING WILDLAND FIRE OPERATIONS

    Senator Feinstein. Well, thank you very much, congressman.
    Let me ask one other question on night flying and then move 
on to the tanker situation, if I might.
    You say you're doing a review, and I assume that review is 
going to result in a change of policy. So the question is, if 
it does, how quickly would you be able to move, and what 
additional resources are necessary?
    It is our understanding that the military and local 
jurisdictions suggest that cost estimates for outfitting night-
flying missions are $12,000 per night-vision goggles, $25,000 
per cockpit renovation to become night-vision compatible, 
$6,000 for additional training costs per pilot and at least 
$10,000 in additional initial training costs per pilot, which 
makes it quite expensive, and I gather your equipment is old.
    The question I have is LA County, I believe, has 15 
helicopters, the city 4, and San Diego how many? Also about 
four. Do private entities have planes available that you could 
contract with to fly at night in addition to these?
    Mr. Tidwell. Well, Senator, depending on what our analysis 
shows as to what the need is, we have several options. I want 
to stress depending on what the analysis shows, because this is 
a complex issue, and that's why it's taken the amount of time 
it'll take for us to review this.
    Some of the options that we have are, one, to require our 
helicopters--at least some of our helicopters that we currently 
contract for--to have the capability, the technology, the pilot 
skill, and the pilot experience to be able to operate at night.
    Another option for us to look at is to see if we want to 
work with our cooperators to expand their capability, where 
they already have the helicopters and the dual mission with 
emergency medical assistance. That may be a better way, to work 
with them through an agreement to be able to expand their 
capability, so that there would be more capability.
    So we have several options that we want to look at, but the 
first thing we need to look at is just to determine is this 
something that we need to move forward with, and then, if it 
is, what is the best way. We do have several options that we 
can pursue.
    Senator Feinstein. Okay. Let me ask you this--similar to 
what Senator Tester asked--if there is another beginning like a 
Station Fire start, can you get a tanker or a helicopter at 
night, the first night to knock out the fire in California, 
this year?
    Mr. Tidwell. Well, in southern California, it would be 
dependent on the availability of our cooperators' helicopters. 
That's one of the reasons we wanted to clarify our policy, to 
make sure all of our incident commanders understand that they 
can request, and should request, if they need night-flying 
missions, night-flying aircraft from the cooperators.
    We also want to make sure that all of our incident 
commanders have the training, so that they can understand what 
situations we can use these ships in, and what situations we 
can't. Of course, they'll work very closely with our 
cooperators on that.
    That's one of the clarifications that we're putting out now 
to make sure that if there's a fire tomorrow that we could use 
a night-flying capability on, that our incident commanders know 
that they can request that from the cooperators. If it's 
available, I'd hope we'd be able to use it.
    Senator Feinstein. I trust that will be the case when the 
Santa Anas are blowing this year.
    For those people that don't know, the Santa Ana winds are 
not westerly. They come east to west. So they're very hot 
winds, and they're extraordinarily dangerous if there's a fire 
going. So I would assume that you would get that covered for 
that period of time.

                            AIRTANKER ASSETS

    Let me go on to the tanker. Your aviation report initially 
recommends that any new aircraft be USFS-owned and contractor 
operated. However, you also include an addendum to the report 
with three other options, including a model where the military 
would own and operate the aircraft. I understand that a work 
group has been convened with the DOD to provide recommendations 
on such a model, but has not yet done so.
    If you are still analyzing these options, when should the 
subcommittee expect to receive a final recommendation from the 
administration regarding who should own and operate the next 
generation of Federal air tankers?
    Mr. Tidwell. As you've referenced, this additional review 
is going on that we're doing together with the DOD along with 
our interagency review that we've already submitted to the 
subcommittee.
    We want to look at both of these reviews along with some 
additional analysis that we're doing in the USFS and also with 
another contract, to be able to pull all the information 
together and look at all the options that we have, and then 
come to the subcommittee and work with you as to what is the 
best way to go forward with this.
    I'm optimistic with the development of these newer aircraft 
that our contractors are working hard to get ready to go for 
this coming season, that 's going to provide us some additional 
time with this issue.
    But it's essential, I think, that, in the near future, 
we're able to sit down and work with the subcommittee and come 
to agreement about what is the best approach to go forward with 
this to ensure that we will have the capability of large air 
tankers that are so essential to our firefighting success.
    Senator Feinstein. Let me read you a staff note in this: 
``We expect the administration to be cagey about providing a 
final recommendation, due to the costs of buying the aircraft. 
We recommend you press them on a specific date.'' I am 
pressing. That's a question.
    Mr. Tidwell. Madam Chairman, thank you for the question. 
I'll respond to that. As soon as this information is available, 
we want to share it with your staff, and that----
    Senator Feinstein. Is this a year? Is it 6 months? Two 
months?
    Mr. Tidwell. I'm thinking by the end of this year we should 
have all the information, and that we'll be able to sit down 
and work with the subcommittee on what the recommendation will 
be.
    I think by the end of the year we will have had some 
experience with the new aircraft that our contractors are 
working on. I think that it is very important for us to be able 
to see what they can do with those aircraft and be able to 
factor that into the long-term solution.
    Senator Feinstein. You're looking at the National Guard 
units as well. Is that correct? Because that's been a 
successful model, I think, in the past.
    Mr. Tidwell. Yes, that's the other thing that we are 
looking at. In the past, and even today, we have the eight 
MAFFS units that are ready and available, primarily to use for 
our surge capacity after all of our existing resources are 
committed.
    That's another area that we want to continue to explore; 
the availability and the use of those aircraft with the MAFFS 
units.

                           AIRTANKER FUNDING

    Senator Feinstein. Now, do you anticipate, at the end of 
this--this is for planning purposes--that you essentially have 
to buy a new air-tanker fleet? And it's my understanding that 
if that's the case, the costs range from $1.5 billion to $2.5 
billion. That's a 2009 USDA Inspector General's report.
    So the question comes, how much would you anticipate the 
cost would be, for planning purposes, if you have to replace 
the fleet?
    Mr. Tidwell. If the recommendation was to replace the fleet 
with the C-130Js, which I think that report is referring to----
    Senator Feinstein. That's correct.
    Mr. Tidwell. We would then request funding over a period of 
years to be able to acquire those. I think that's just one of 
the options that we need to consider. If we did pursue that, we 
would spread that over many years to be able to acquire those 
over the long term.
    Senator Feinstein. Well, let me say--and you know this. You 
don't need to hear this from me, but this is a big issue in the 
West. I mean, there is nothing like having your house burn 
down, nothing, other than, I think, dying, that really strikes 
people.
    You know, if we're supposed to protect people, this is one 
of the things we have to protect against. And so that immediate 
response, the ability to knock out that wildland fire within 
the first 24 hours, even within the first half hour, if it's 
possible, becomes paramount, I think, as you analyze cost and 
effect.
    So the air assets are critical, and they have to be in 
place. They have to be accessible, and they have to be man-able 
during fire season. And I think that ought to be our goal.
    So let me ask you: Does the administration plan to support 
funding to replace tankers as part of future Presidential 
budget requests?
    Mr. Tidwell. If our recommendation is to acquire new 
aircraft, we will be submitting the budget request for that in 
future years.
    Senator Feinstein. If?
    Mr. Tidwell. If.
    Senator Feinstein. You're really cagey.
    Mr. Tidwell. You know, last year, we were not aware of this 
potential new capability with the aircraft that our private 
contractors are developing for use this year, so that gives us 
a different option that we need to consider.

                         2010 AIRTANKER ASSETS

    Senator Feinstein. So that was my earlier question. How 
many private contractors can you contract with this year?
    Mr. Tidwell. This year we have three contractors that are 
in place that provide the 19 large air tankers.
    Senator Feinstein. And where are they?
    Mr. Tidwell. There's one in Missoula, Montana. One's in 
Minden, Nevada, and then Aero Union in California.
    Senator Feinstein. Where is that in California?
    Mr. Tidwell. It's outside of Chico.
    Senator Feinstein. Oh, up north. Well, that'll take care of 
the North. I mean----
    Mr. Tidwell. We position these planes throughout the 
country, depending on the fire conditions that we have, and so 
very seldom are they at their home bases. They're moving 
throughout the country almost every day, moving to wherever we 
need them.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Feinstein. Okay. Well, I think that completes my 
questions. We may have a couple of questions for you in 
writing. I have a lot of questions here.
    But I think the point I want to make is that this is a real 
priority, and we're going to continue to do our level best 
within our allocation--and I think Senator Alexander, who's a 
wonderful Ranking Member, will agree with this--to give you 
what you need to fight fires. So I would not be shy about it.
    Mike Pool, that goes for you, too.
    Mr. Pool. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                   Questions Submitted to Tom Tidwell
            Questions Submitted by Senator Dianne Feinstein
    Question. Chief Tidwell, your agency had access to as many as 44 
air tankers in 2002. However, since then, safety concerns and accidents 
have grounded all but 19 of these planes--and those that remain are 
aging out of service starting as soon as fiscal year 2012. This 
subcommittee has been asking about your replacement strategy since at 
least fiscal year 2005, including a request in the fiscal year 2010 
Interior, Environment, and Related Agencies bill that you provide a 
copy of your plan by last November. Yet we didn't receive your report 
until May 5. Why did it take so long for the administration to publicly 
acknowledge this problem and begin to offer recommendations?
    Answer. The Forest Service (USFS) identified the airtanker shortage 
as an emerging problem as early as 2002 after two planes crashed. 
Following the two crashes, the USFS and the U.S. Bureau of Land 
Management (BLM) jointly established an independent blue ribbon panel 
``to investigate issues associated with aerial wildland firefighting in 
the United States.'' In March, 2003, the panel released its report, 
which included eight key findings. As a result of the panel's 
recommendations, the USFS and BLM declined to renew the leases on nine 
C-130A and PB4Y-2 airtankers, and ordered the 33 remaining large 
airtankers to undergo an improved inspection program before they 
returned to active service.
    The long-term solution to this problem is complex and national in 
scope. The 2008 Interagency Aviation Strategy was the result of a 
coordinated effort among the wildland fire agencies to arrive at a 
consensus to satisfy the fire fighting aircraft needs of the Nation. 
Representatives from all five Federal wildfire agencies within the 
Department of Agriculture and the Department of the Interior, as well 
as representatives from the National Association of State Foresters, 
participated. Experienced senior fire and aviation managers 
collectively developed this plan for meeting the Nation's future 
aviation needs. In part, the plan includes a recommendation for the 
Federal Government--to acquire over a 10-year period--25 new and 
efficient aircraft to replace the existing large airtanker fleet. The 
plan recommends that aircraft be operated and maintained by private 
industry with the Federal Government retaining ownership. The current 
administration has yet to establish a position on the types and 
ownership of a replacement airtanker fleet.
    Question. Please provide the subcommittee with detail regarding the 
remaining operational service life of each of the large air tankers 
currently remaining in the fleet.
    Answer. Please refer to the attached figure displaying the 
estimated numbers of the current P3 and P2V airtanker aircraft 
available each year, projected out to the year 2030.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Question. What steps is USFS taking in the immediate future to make 
additional resources available and to pursue short-term options to 
replace or augment the current air tanker fleet?
    Answer. USFS is pursuing several options to maintain or improve our 
current retardant delivery capacity. Short-term solutions include 
increased reliance on helicopters, the possible introduction of 
substitute aircraft similar in size to our current tankers, such as the 
BAe 146, and efficiently using ``niche'' aircraft such as single engine 
airtankers, very large airtankers, and scooper aircraft.
    Question. The report you provided, the National Interagency 
Aviation Council (NIAC) report, recommends that USFS procure a fleet of 
25 C-130J aircraft to replace your current air tankers. Chief Tidwell, 
how do you know that C-130J aircraft are the right aircraft for the 
job?
    Answer. USFS continues to evaluate multiple aircraft for cost and 
suitability. However, we have not made an aircraft selection nor have 
we committed to any one model. While we remain open to all reasonable 
options, some analysis has shown this to be an efficient model capable 
of meeting our needs for initial attack.
    USFS has first-hand experience with many different types of 
aircraft, including the C-130 series. This aircraft fully meets the 
immediate and future operational requirements of USFS. However, there 
is a benefit to a diverse fleet to meet a variety of needs. We have 
currently identified our needs to be a cruising speed of 350 mph and 
ability to drop 3-5,000 gallons.
    Question. What kind of formal analysis has USFS done to determine 
how many aircraft you really need? How do you know that 25 aircraft is 
the ``right'' number, especially given the fact that you have 
historically had access to more than 25 aircraft?
    Answer. The 2008 Interagency Aviation Strategy, which was the 
result of a coordinated effort among the wildland fire agencies to 
arrive at a consensus to satisfy the fire fighting aircraft needs of 
the Nation, calls for the Federal Government to acquire--over a 10-year 
period--25 new and efficient aircraft to replace the existing large 
fixed wing airtanker fleet. This was based solely on the 2005 Wildland 
Fire Management Aerial Application Study. Having newer, more efficient 
aircraft will allow USFS to maintain or improve its initial attack 
success rate with fewer total fixed-wing aircraft. Moreover, the NIAC 
report concluded that the acquisition of these airtankers would also 
result in the reduction in the number of large helicopters contracted 
by USFS (from 39 to 7).
    In order to do a more thorough analysis, USFS has commissioned the 
Rand Corporation to review and analyze our future needs to determine 
the right number of aircraft. This will provide us with the most 
current projections on the most appropriate number of aircraft, 
updating the recommendation from the 2008 Interagency Aviation 
Strategy. Once this study is completed, we will be better informed to 
answer this question.
    Question. What other aircraft models did you consider before 
reaching the conclusion that the C-130J aircraft was the appropriate 
choice? What are the alternatives available to purchasing C-130Js? 
Please provide the subcommittee with specific documentation relating to 
the selection of this type of aircraft, including cost and performance 
comparisons with other options.
    Answer. USFS continues to evaluate multiple aircraft for cost and 
suitability. However, we have not made an aircraft selection nor have 
we committed to any one model. We remain open to all reasonable 
options. We have currently identified our needs to be a cruising speed 
of 350 mph and ability to drop 3-5,000 gallons. At this time, USFS is 
unable to release cost and performance data for the aircraft currently 
under analysis.
    Question. Have you quantified what benefit the C-130Js might 
provide in terms of better firefighting effectiveness or lower 
suppression costs? Specifically, have you quantified what effect these 
aircraft might have on your initial attack success rate and calculated 
what impact that improved initial attack performance might yield in 
terms of lower suppression costs? Please provide specific data.
    Answer. USFS has contracted with the Rand Corporation to develop 
performance measures for large airtankers. While we anticipate improved 
performance, at this time, USFS is unable to release cost and 
performance data for the aircraft currently under analysis. Once the 
Rand Corporation study is completed we will be better able to answer 
this question. Some analysis of the cost savings that might be provided 
by the use of C-130Js can be found in ``Appendix 12: Wildland Fire 
Large Airtanker Strategy,'' pages 72-76 of the ``2008 Interagency 
Aviation Strategy.''
    Question. What are the legislative or policy hurdles that would 
have to be addressed to allow a military-owned, military-operated air 
tanker fleet? Are there any legislative or policy barriers that would 
prevent military-owned and -operated aircraft from performing initial 
attack or other essential aviation functions?
    Answer. This question is being addressed by the Secretary of the 
Air Force, the Chief of the Air Force Reserve, and the Director of the 
National Guard Bureau in response to a request in the House 
Appropriations Committee Report (House Report 111-230) accompanying 
Public Law 110-118, the Department of Defense Appropriations Act of 
fiscal year 2010. While we are not aware of any legislative or policy 
barriers that would prevent military-owned and military-operated 
aircraft from performing initial attack or other essential aviation 
functions, we defer to the Air Force and the National Guard Bureau to 
definitively answer this question.
    A May 17, 2004 report to Congress by the Office of Management and 
Budget entitled, ``A Review of Existing Authorities and Procedures for 
Using Military Assets in Fighting Wildfires'' concludes that ``The 
Economy Act permits an agency to place an order with another agency 
after deciding, in particular, that the requirement cannot be provided 
by contract as conveniently or cheaply by a commercial enterprise''. 
USFS has successfully used a military-owned, military-operated fleet of 
airtankers in the Modular Airborne Firefighting Systems (MAFFS) program 
for the past 25 years under current legislation and policy. Prior to 
1994, USFS was not requested to reimburse costs for the MAFFS units. 
Beginning in 1994, due to the long duration and intensity of operations 
that season, USFS was billed for flying hour costs plus overtime pay 
for personnel. In 2004, the Secretary of Defense directed that full 
cost of all MAFFS-related expenses would be fully reimbursed.
    Question. In April 2010, the USDA Inspector General released a 
report that identified critical gaps in USFS firefighting workforce 
over the next 5-10 years because a growing percentage of firefighters 
are eligible to retire at the same time that large, complex wildfires 
are increasing the need for qualified firefighters. The IG offered 20 
specific recommendations for USFS to follow, including developing a 
workforce plan to ensure the right number of qualified firefighters 
will be available in the future, improving training, and eliminating 
unnecessary education requirements for firefighters. Chief Tidwell, 
what are you going to do to address this problem? Does USFS plan to 
implement all of the Inspector General's recommendations? If not, why 
not?
    Answer. USFS is currently engaged in the development of a strategic 
plan addressing all the Inspector General's recommendations contained 
in the Audit Report 08601-54-SF, USFS's Firefighting Succession 
Planning Process. Progress to-date includes reaching management 
decisions on 19 of the 20 recommendations, and completion of the 
actions required to close the first two recommendations. These actions 
are: (1) assigning responsibility for firefighter qualification 
workforce planning to the Director of Fire and Aviation as the top 
level official at USFS national headquarters; and (2) chartering the 
Workforce Succession Planning Team which has begun its work. The 
Workforce Succession Planning Team includes members of Fire and 
Aviation Management senior management, Line Officers and 
representatives from Business Operations-Human Resources Management 
including Diversity and Civil Rights representatives. This work is 
being coordinated with the Regional Foresters to assure consistency and 
adequacy of the Workforce and Succession Strategic Plan. The Strategic 
Plan will be completed no later than March 31, 2011.
    Question. This year your budget failed to provide specific regional 
budget allocations for USFS programs, including important Wildland Fire 
Management programs such as hazardous fuels reduction and fire 
preparedness. Please submit for the record a table that shows fiscal 
year 2010 enacted and fiscal year 2011 planned regional budget 
allocations for all Wildland Fire Management programs.
    Answer. The fiscal year 2010 information was not included in the 
fiscal year 2011 annual budget justification because this display of 
estimates, created by simply prorating from the last available 
allocation, has been interpreted as a commitment by USFS to those 
levels. There are a number of reasons why USFS cannot provide the exact 
level of funds indicated. Many times the actual appropriation received 
may be different than the baseline used. The agency is also faced with 
changing conditions for land management including climate change, 
epidemic insect infestations, and other local demands which will 
influence the funds distributed.
    A table, displaying fiscal year 2010 information, is on the 
following page.

                                                                                        FISCAL YEAR 2010
                                                                                    [In thousands of dollars]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                                                        Forest
                                  Region 1   Region 2   Region 3   Region 4   Region 5   Region 6   Region 8   Region 9  Region 10  Stations/   Centralized  Washington   National/     Service
                                                                                                                                     area/ITF  Business \1\  office \2\  unallocated     total
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Wildland Fire Management:
    Fire Preparedness--WFPR....     57,166     29,842     60,823     55,328    205,755     78,827     34,573     22,967      2,949      2,190       29,106       78,767      16,706      675,000
    Fire Operations:             .........  .........  .........  .........  .........  .........  .........  .........  .........  .........      117,120      184,182     696,203      997,505
     Suppression--WFSU.........
    Hazardous Fuels--WFHF......     24,896     30,236     42,144     23,249     58,074     35,538     41,374     11,130      1,017      7,535       41,492       14,672      18,929      350,286
    Rehabilitation and               1,443        409      1,143      2,444      2,548      1,251        347        573          6          2          619           96         720       11,600
     Restoration (NFP)--WFW3...
    Fire Research and            .........  .........  .........  .........  .........  .........  .........  .........  .........     21,140        2,104          255         419       23,917
     Development-- FRF2........
    Joint Fire Sciences........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  ............  ..........       5,000        5,000
    Forest Health Management:        3,060      3,500        446      2,897      2,897      3,589      1,000  .........        161        809        1,221          219         954       20,752
     Federal Lands (NFP)--SPS4.
    Forest Health Management:          971        897      1,348        827        955      2,054        818  .........      1,161         18          389           65       1,925       11,428
     Cooperative Lands (NFP)--
     SPS5......................
    State Fire Assistance            1,738      2,512      1,358      1,612     11,899      2,299     13,464  .........        416      9,255           15          133      26,548       71,250
     (NFP)--SPS2...............
    Volunteer Fire Assistance          707        840        576        310        973        707      2,250  .........        309      2,328  ............  ..........  ...........       9,000
     (NFP)-- SPS3..............
                                ----------------------------------------------------------------------------------------------------------------------------------------------------------------
        Total, Wildland Fire        89,981     68,236    107,837     86,667    283,101    124,265     93,826     34,670      6,020     43,278      192,066      278,389     767,403    2,175,738
         Management............
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Regional and Other unit allocations include each units share of cost pool funding from each budget line item. Estimated allocations for fiscal year 2011 are prorated from the fiscal year
  2010 final levels.
\2\ The large shift in the preparedness and suppression funding levels for these units between fiscal year 2010 and fiscal year 2011 reflects a rebaselining of the WFM account, realigning cost
  pool amounts that had been shifted over the past years.

    Question. As you know, I provided USFS with $28 million in prior-
year appropriations bills to address firefighter retention issues in 
high-risk areas like California. USFS currently has a 4 percent vacancy 
rate for its 4,489 firefighting positions in California. That's an 
improvement over the 9 percent vacancy rates you posted in May 2008. 
However, while the agency has made progress in filling its overall 
number of vacancies, I remain concerned that USFS is still missing:
  --20 percent of the GS-10s;
  --12 percent of the GS-11s; and
  --17 percent of the GS-12s that you identify as needed in your 
        targeted staffing levels.
    These senior-level firefighters make important fire policy and 
management decisions and it is critical that these spots are filled 
before fire season begins in earnest. It's my understanding that these 
positions may not have been affected by the retention incentives that 
you currently have in place. What steps are you taking to address the 
high vacancy rates for these senior positions?
    Answer. On March 31, 2010, the USDA Office of Inspector General 
(OIG) provided USFS with the final audit report on Forest Service 
firefighter succession planning. OIG accepted USFS's management 
decision for 19 of the 20 of the report recommendations. Implementation 
of these recommendations will help improve our ability to keep and fill 
these positions when vacant at a higher rate in the future. In the 
interim, we are using 120-day temporary promotions for positions that 
have known mandatory retirement dates in an effort to keep our 
commitment to fire readiness.
    Additionally, the GS-10 positions, which are exclusively WG-10 
Dozer Operators and Assistant Dozer Operators, have an updated vacancy 
rate entering into this fire season (as of 6-1-2010) of only 4 percent, 
with only 1 vacancy in 28 planned positions.
    Question. I understand that the administration has weighed a number 
of more permanent proposals to help retain California firefighters--
updating and expanding a special pay rate to address salary disparities 
with cooperators, implementing a 24-hour ``portal-to-portal'' 
firefighting salary for incidents and creating Wildland Firefighter 
series for Federal employees. Yet none of these things have been 
implemented. Can you please provide me with an update on where each of 
those proposals stands?
    Answer. USFS will not be pursuing the use of ordered standby or 
portal-to-portal pay as supplemental pay options. USFS is continuing a 
dialogue with the Office of Personnel Management about firefighter 
position classification options.
    Question. I understand that in the 1970s, firefighting, or 
assistance to a firefighting mission was in the project description of 
almost all USFS employees. Why did that change? If this policy was 
reinstated, would your fire suppression costs be reduced by relying 
more in-house firefighting support rather than more expensive 
cooperators?
    Answer. There is still an expectation that employees support 
emergency operations. During high fire seasons the Chief has issued 
letters stating that, ``employees must participate in fire activities 
commensurate with their respective training, qualifications, and 
physical ability. Those not incident qualified or who cannot accept 
assignment away from home are expected to support the fire efforts and 
provide backup for those on assignment.''
    Firefighting and assistance to the firefighting mission was not 
necessarily in all job descriptions of USFS employees during the 1970s. 
Support of the firefighting mission, however, was an organizational 
expectation at the time. As society and the economy changed and more 
families became two-income households, there was less financial 
incentive to participate in the firefighting mission. Our employees 
have become much more functionally specialized and are also not often 
capable to work away from their duty station for extended periods of 
time on a recurring basis, as is needed to support the firefighting 
mission.
    Question. I am concerned that the administration doesn't have a 
comprehensive wildland fire policy to address the broader questions of 
how we're going to manage wildfire challenges. It seems as though the 
Federal Government continues to address wildfire issues--which include 
everything from how to address rising fire suppression costs to how to 
ensure communities to have the right zoning and defensible space to 
reduce fire risk--on an ad hoc basis. Mr. Pool, Chief Tidwell, what is 
this administration doing to better address wildfire policy?
    Answer. The Department of the Interior and the Department of 
Agriculture--USFS are in the midst of preparing a Cohesive Wildfire 
Strategy as required by Congress to address the issue of wildfire 
policy.
    The Cohesive Wildfire Management Strategy Process Framework is on 
track to be delivered to Congress by November 1, 2010.
    As noted in the USDA OIG report, ``Large Fire Suppression Costs'' 
dated November 2006, escalating cost to fight fires is largely due to 
efforts to protect private property in the wildland urban interface 
(WUI) bordering USFS lands. Homeowner reliance on the Federal 
Government to provide wildfire suppression services places an enormous 
financial burden on the USFS, as the lead Federal agency providing such 
services. It also removes incentives for landowners moving into the WUI 
to take responsibility for their own protection and ensure their homes 
are constructed and landscaped in ways that reduce wildfire risks. 
Assigning more responsibility to State and local government for WUI 
wildfire protection is critical because Federal agencies do not have 
the power to regulate WUI development. Zoning and planning authority 
rests entirely with State and local governments.
    Question. How many acres of national forests nationwide do you 
estimate require hazardous fuels treatments? What percentage of needed 
fuels treatments is USFS accomplishing in a given year, based on 
current budget requests?
    Answer. Nationally there are about 115 million acres of National 
Forest System lands which are in need of hazardous fuels treatments, as 
identified by the number of acres in a high wildland fire potential 
category. Over the last 3 years, USFS has treated about 3 million acres 
per year. Additional acres have been treated on Department of the 
Interior lands and on State and private lands. A majority, but not all, 
of the recently treated acres were on the highest-priority lands based 
on the working definition of high-priority acres with a high or very 
high relative ranking for wildland fire potential. Follow-up treatments 
are conducted in some areas and are needed to maintain the lowered fuel 
class conditions. Wildland fire potential is based on the probability 
of fire occurrence and potential fire behavior based on historic 
patterns and fuel conditions. Wildland fire potential is then 
classified into a relative ranking of fire potential from very low to 
very high. As a caveat, wildfire potential was designed as a comparison 
of conditions across the Nation and should not be used as a benchmark 
to measure progress in hazardous fuels treatment. Also, weather 
conditions and direction can influence future accomplishment in 
hazardous fuels treatment. USFS anticipates the availability of updated 
data on wildland fire potential later this year, or early in 2011.
    Question. I'm very concerned about the vegetative conditions that 
allowed the Station Fire to rage out of control in the first place. 
Since 2005, this subcommittee has invested $160 million for hazardous 
fuels reduction treatments on the four national forests in southern 
California, with 11 percent of those funds, or $17.3 million, used for 
projects specifically on the Angeles National Forest. What kind of 
progress has your agency made to reduce fuels on these forests with 
this investment? What is the agency's estimate regarding how many 
additional acres require treatment?
    Answer. Since 2005, approximately 170,000 acres of hazardous fuel 
treatments have been accomplished within the four national forests of 
southern California. About 20,000 acres of those treatments were on the 
Angeles National Forest. Significant accomplishment momentum was 
created by the supplemental appropriations in fiscal year 2008 and 
fiscal year 2009 that provided for large increases in integrated 
restoration and hazardous fuel treatment accomplishments.
    Question. Why does USFS budget request cut State and volunteer fire 
assistance grants from $80 million to $57 million, and why does the 
Interior fire budget propose to completely eliminate rural fire 
assistance grants?
    Answer. The President's fiscal year 2011 budget proposal for USFS 
for the National Fire Plan State Fire Assistance (SFA) and Volunteer 
Fire Assistance (VFA) accounts, while down from the fiscal year 2010 
enacted level, is consistent with prior years' funding levels and the 
fiscal year 2010 President's budget for these accounts. The budget 
reflects the President's priorities and Secretary of Agriculture Tom 
Vilsack's vision for restoring and enhancing the resilience and 
productivity of America's forests. The funds identified under the 
Wildland Fire appropriation complement the SFA and VFA programs that 
are funded through the State and Private Forestry appropriation.
    Question. In my experience with wildfires in California, rural fire 
departments play a crucial role in preventing and fighting wildfires, 
especially in remote areas. I would like to hear from USFS and the 
Interior Department how you view the role of volunteer and rural fire 
departments.
    It has been my understanding that grants to volunteer and rural 
fire departments provide them with the firefighting tools, equipment, 
and training they may not be able to acquire otherwise. Is the money 
spent on fire department grants cost effective?
    Answer. Rural fire departments represent the first line of defense 
in coping with fires and other emergencies in rural areas and rural 
communities. These departments provide nearly 80 percent of initial 
attack on wildland fires in the United States and are responsible for 
the protection of lives, homes, and business investments in rural 
America. Their presence enhances rural development opportunities and 
economic vitality, thereby improving standards of living in rural 
areas. Rural fire departments also provide major assistance to State 
forestry agencies in the suppression of wildland fires and, in some 
States, suppress all such fires.
    Rural fire departments also play a major role in suppressing 
wildfires on Federal lands. USFS and various Department of the Interior 
land management agencies have entered into cooperative agreements with 
many rural fire departments. These agreements enhance the protection of 
both communities and natural resources. Through these partnerships, a 
level of fire protection is attained which would be impossible without 
such cooperation. The Volunteer Fire Assistance (VFA) Program assists 
volunteer rural fire departments by providing cost-share grants for 
training, equipment, and organization to enhance the capability of 
rural fire departments to conduct initial attack on wildland fires.
    Rural fire departments receiving Volunteer Fire Assistance (VFA) 
grants are required to provide a 50 percent match to the Federal VFA 
funding. The cost share amount provided by the departments can either 
be in the form of cash or an ``in kind'' contribution. By requiring the 
cost share, recipient departments are invested in the grant process, 
thus ensuring that the funding provided to these rural fire departments 
is used in the most cost effective manner.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
    Question. Because the forest industry is a significant part of West 
Virginia's economy, I have always paid keen attention to the U.S. 
Forest Service's (USFS) annual budget proposals. For the better part of 
7 years, I have watched as the inability to control fires in 
California's wildland urban interface (WUI) areas has led to 
significant reallocations of USFS resources for fire suppression 
activities. These reallocations, while absolutely necessary, were 
accomplished at the expense of important forestry programs across the 
United States, including West Virginia.
    In an effort to prevent the seemingly annual reallocations from 
emasculating the budget for forestry programs in West Virginia, in 2009 
Congress enacted the FLAME Act, which the President signed into law. 
The purpose of the FLAME Act is to establish an emergency fund for fire 
suppression activities in the years when such activities result in 
expenditure in excess of those assumed in the President's budget.
    Though I share the hope of my colleagues that the FLAME Act will 
restore order to USFS programs, I have yet to see any information from 
the USFS that it has a program in place to prevent small-scale fires in 
California's WUI from growing into conflagrations. In many other 
countries with geographic and climactic conditions similar to 
California, their top priority is to extinguish the fire in the initial 
attack. In fact, their entire fire suppression program is oriented 
toward the immediate dispatch of aircraft specifically designed to 
extinguish fires with constant drops of water and foaming agents 
directly on the head of the fire. We seem to operate a bit differently 
in the United States, with aircraft not dispatched until a ground crew 
is on site to direct the drop of fire retardants ahead of the fire via 
large tanker aircraft modified for this purpose.
    After watching these WUI fires break containment year after year, I 
would like to know if there is anything to learn from the approaches 
used in other countries. As such, I would appreciate prompt responses 
to the questions I am submitting for the record.
    Please provide exact dollar figures for budgeted and nonbudgeted 
fire suppression activities in California for each of the past 7 years. 
Please include in this information expenditures from all Federal 
agencies, including agencies of the Department of Agriculture, 
Department of the Interior, Department of Defense, and Department of 
Homeland Security.
    Answer. USFS is unable to provide this data for other agencies. The 
figures in the table below do include the costs of reimbursable 
agreements, which include many different cooperators, other than the 
Department of the Interior. The agreement between the Department of 
Agriculture and Department of the Interior is to support the 
firefighting mission on Federal lands; we do not cross-bill each other 
for this support.

                                    FOREST SERVICE EXPENDITURES IN CALIFORNIA
----------------------------------------------------------------------------------------------------------------
                                                                    Suppression    Preparedness
                           Fiscal year                             expenditures    expenditures        Total
----------------------------------------------------------------------------------------------------------------
2003............................................................    $162,806,435    $164,397,410    $327,203,845
2004............................................................     205,167,116     170,459,681     375,626,797
2005............................................................     127,144,048     150,127,698     277,271,746
2006............................................................     370,248,971     159,193,754     529,442,725
2007............................................................     345,823,689     181,308,281     527,131,970
2008............................................................     749,719,334     177,162,801     926,882,135
2009............................................................     316,570,000     198,942,152     515,512,152
----------------------------------------------------------------------------------------------------------------

    Question. Please provide a summary of the USFS/Bureau of Land 
Management operating policies with respect to the initiation and 
deployment of fixed-wing air tanker aircraft for fires occurring on 
U.S. property in California's WUI.
    Answer. When a local dispatch places an order for aircraft the 
Geographic Area Coordination Center (GACC) utilizes a proximity tool to 
locate the closest available resource. The proximity tool uses the 
latitude and longitude to determine the radial distance from each 
prospective base. The GACC then dispatches the closest available 
aircraft to the incident. Our priority is initial attack. If all air 
tankers are already assigned, the closest air tankers are diverted to 
any new start. These dispatch transactions are documented using the 
Resource Order and Status System.
    When there are many fires requesting air support a priority list is 
sent to the requesting agencies by 20:30 on each day, creating an air 
tanker assignment list. When activated, the Multi-Agency Coordinating 
Group does not decide which tankers go to the fires, only the number of 
tankers and the type. The aircraft dispatchers, Federal and State 
together, dispatch the closest air tankers to the highest-priority 
fire, and so on. If there is an initial attack fire, the aircraft 
dispatcher diverts the closest aircraft from any ongoing fire.
    During periods of high fire activity air tankers are routinely 
reassigned to new starts instead of the fire they had been working the 
previous day. Each night a tentative lineup is faxed and/or emailed to 
all affected air bases and incident command posts for the next day's 
assignments. It is understood that this line up is tentative and is 
pending for the following reasons:
  --Air tankers can be sent to initial attack fires (new Starts).
  --Priorities may change for the next day's fires. Each day the active 
        fires are prioritized to facilitate air tanker coverage for 
        initial attack and support of large fires.
  --Many times air tankers do not fly early morning missions due to 
        unplanned weather events, such as smoke inversions and/or fog. 
        Due to the fog or inversion, the air tankers may be assigned to 
        lesser priority fires with the understanding that they will be 
        reassigned to the higher-priority fire once the inversion 
        clears or lifts.
  --Aircraft may be out-of-service due to mechanical or pilot issues 
        (limits on flight time) in the morning, requiring the GACC to 
        change the line-up based on how many and which types of 
        aircraft were originally requested.
    Question. With respect to the five most expensive California WUI 
fires in the past 7 years, please provide a summary for each fire, 
detailing the time when the fire was first reported, the time which 
elapsed before fixed-wing aircraft were dispatched by the USFS, and the 
effectiveness of the dispatched aircraft.
    Answer. See the following table.

----------------------------------------------------------------------------------------------------------------
                                                                                   First Forest
                                       Administrative unit    Discovery date/     Service first     Elapsed time
           Fire name \1\                      name                  time            fixed-wing     (minutes) \2\
                                                                                     aircraft
----------------------------------------------------------------------------------------------------------------
STATION............................  Angeles National            8/26/09 15:19      8/26/09 15:23             4
                                      Forest.
ZACA...............................  Los Padres National          7/4/07 10:54       7/4/07 14:07           193
                                      Forest.
BASIN COMPLEX......................  Los Padres National         6/21/08 13:29      6/21/08 13:29  .............
                                      Forest.
CEDAR..............................  Cleveland National         10/25/03 17:45     10/25/03 17:50             5
                                      Forest.
DAY................................  Los Padres National          9/4/06 14:15       9/4/06 14:41            26
                                      Forest.
----------------------------------------------------------------------------------------------------------------
\1\ All of these fires occurred in critical fire weather conditions. All escaped Initial Attack efforts of both
  air and ground resources.
\2\ As shown on the 5100-29, Individual Fire Report.

    Question. Please provide specific data on cost per gallon of fluid 
dropped on the fire for each aircraft engaged by the USFS for fire 
suppression efforts on California's WUI fires.
    Answer. Total cost column includes both aircraft time and retardant 
cost.

----------------------------------------------------------------------------------------------------------------
                                                                      Gallons                        Price per
               Fire name                    Type of aircraft          dropped       Total cost        gallon
----------------------------------------------------------------------------------------------------------------
STATION...............................  Helicopters.............       4,423,440      $4,296,813           $0.97
                                        Air Tankers.............       1,218,454      $2,608,603           $2.14
ZACA..................................  Helicopters.............       4,409,027      $4,195,020           $0.95
                                        Air Tankers.............       1,362,486      $2,027,020           $1.49
BASIN COMPLEX \1\.....................  Helicopters.............          22,800          $4,735           $0.21
                                        Air Tankers.............  ..............  ..............  ..............
CEDAR \2\.............................  Helicopters.............  ..............  ..............  ..............
                                        Air Tankers.............  ..............  ..............  ..............
DAY \2\...............................  Helicopters.............  ..............  ..............  ..............
                                        Air Tankers.............  ..............  ..............  ..............
----------------------------------------------------------------------------------------------------------------
\1\ System upgrade in ABS (Aviation Business Management System) 
affected data available for the fixed-wing aircraft on this fire.
\2\ Fires occurred prior to implementation of ABS. Unable to locate 
data from pre-ABS system.

    Question. Please provide a ranking of all aircraft, based on the 
cost per gallon of fluid dropped (using a hypothetical California WUI 
fire such as the Station Fire), assuming that the aircraft must drop 
30,000 gallons of fluid. The cost estimate should factor in known daily 
lease rates, hourly expenses (all operating, maintenance, and air/land 
crew costs), including the time it takes to load the tanker with fluid 
for the initial drop and for refilling the aircraft after the initial 
drop.
    Answer. This is the type of evaluation the USFS will be working 
with the Rand Corporation to document which aircraft best meet the 
agency needs.
    Question. It is my understanding that the USFS has commissioned the 
Rand Corporation to study potential replacements for the USFS fixed-
wing aircraft fleet. It is also my understanding that Rand was 
instructed to exclude from its study the only aircraft in the world 
purpose-built to fight fires. With WUI operating costs significantly 
(75 to 80 percent) lower than converted tankers, why would the USFS 
exclude this aircraft from the Rand Study?
    Answer. USFS has contracted with the Rand Corporation to develop 
performance measures for large airtankers and to provide an analysis of 
the best mix of helicopters and fixed-wing air tankers. The Rand 
Corporation is looking at all options. The results of this study will 
help us determine our large airtanker needs.
    Question. Based on your evaluation of firefighting operating 
practices in regions of the world with geographic and climatic 
conditions similar to those which exist in Southern California, how 
many of those nations rely on aging military/commercial passenger 
aircraft modified for use as tankers? How many of those nations use 
purpose built aircraft?
    Answer. Mediterranean nations (France, Italy, Greece, and Spain), 
which do have geographic and climatic conditions that are somewhat 
similar to those in southern California, predominantly use water 
scooper fixed-wing aircraft like the Bombardier and Canadier. These 
aircraft are built specifically for wildland firefighting. They scoop 
water only, they do not drop retardant. There are a few Hercules C-
130s, aircraft originally built for military purposes and converted for 
use as air tankers, being used in this region of Europe as well.
    Other countries that might also be considered somewhat comparable 
are Australia and South Africa. They use mainly smaller aircraft that 
are crop dusters converted into air tankers, similar to our Single 
Engine Airtankers. Australia is also testing the DC-10, a converted 
passenger/commercial aircraft. Russia, which has a variety of different 
geographic and climatic conditions, utilizes converted military 
aircraft, but has recently built the BE200--a water scooper aircraft 
built specifically for wildland firefighting. This aircraft is not yet 
deployed widely, but is likely to be used more heavily in the future in 
Russia. The BE200 is not approved by the FAA for use in the United 
States of America.
                                 ______
                                 
                    Question Submitted to Mike Pool
             Question Submitted by Senator Dianne Feinstein
    Question. Mr. Pool, the Interior Department's budget cuts $44 
million from your hazardous fuels reduction budget--a 21 percent cut--
for a total of $162 million. I understand that your budget assumes that 
you will discontinue most fuels treatments outside the wildland-urban 
interface (WUI). This is a different approach than USFS took in its 
budget request, which includes flat funding of $349 million for fuels 
projects and reallocates funding within the budget for more treatments 
in the WUI. What is the Department's rationale for drastically reducing 
funds for fuels treatments? Why does it make sense for your agencies to 
take such different approaches to the fuels budgets?
    Answer. Although funding for hazardous fuels treatments has 
quadrupled since 2000, the previous policy of treating the greatest 
number of acres possible has led to a patchwork of activities that have 
not been efficient in reducing risks to communities.
    The proposed funding reduction for the Hazardous Fuels Reduction 
program reflects a shift in focus toward conducting hazardous fuels 
projects in WUI areas to reduce the risk of wildfire to communities. 
These are the areas where suppression costs are the highest and where 
hazardous fuels activities are most effective in reducing the risk of 
catastrophic fires threatening communities and in reducing firefighting 
costs. When there is a clear priority of treating acres within the WUI, 
hazardous fuels treatments can be more effective in reducing risk.
    The Department of the Interior and the Department of Agriculture do 
not take different approaches. Both agencies make informed decisions 
that include using systematic modeling approaches to identify high-
priority projects, in high-priority areas. A consistent modeling 
approach is applied in the Hazardous Fuels Prioritization and 
Allocation System (HFPAS). The HFPAS has four components that are taken 
into consideration, current funding, the ecosystem management decision 
support model that provides the priority areas, the project 
prioritization system that identifies the priority projects, and 
additional information that cannot be modeled, professional judgment/
management considerations, i.e. adjustments for unforeseen 
circumstances.

                         CONCLUSION OF HEARING

    Senator Feinstein. We have to do better.
    So I want to thank Representative Schiff. I want to thank 
you all, and I think I will recess the hearing. Thank you very, 
very much.
    [Whereupon, at 11:10 a.m., Wednesday, May 26, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                    

</pre></body></html>
